Nos. 19-1155 and 19-1156

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
MING DAI
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
CESAR ALCARAZ-ENRIQUEZ
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE PETITIONER
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

1. Whether a court of appeals may conclusively presume that an asylum applicant’s testimony is credible
and true whenever an immigration judge or the Board
of Immigration Appeals adjudicates an application
without making an explicit adverse credibility determination.
2. Whether, in Dai v. Barr, No. 15-70776 (Mar. 8,
2018), the court of appeals violated the ordinary remand
rule as set forth in INS v. Orlando Ventura, 537 U.S. 12
(2002) (per curiam), when it determined in the first instance that Dai was eligible for asylum and entitled to
withholding of removal.

(I)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement:
A. Statutory background ............................................... 3
B. Procedural history .................................................... 6
1. Dai ........................................................................ 6
2. Alcaraz-Enriquez ............................................. 14
Summary of argument ............................................................... 17
Argument:
I. The court of appeals erred by failing to apply the
substantial-evidence standard of review required
by the INA...................................................................... 20
A. The INA requires a court of appeals to sustain
the Board’s determination that an alien has not
proven his eligibility for relief, so long as that
determination is supported by substantial
evidence .................................................................... 20
B. The Board’s determinations here easily satisfy
the substantial-evidence standard......................... 22
C. The court of appeals overturned the Board’s
reasonable determinations based on an
erroneous judicially created presumption .......... 26
D. Respondents’ arguments that the decisions
below properly rest on a presumption of
credibility are wrong............................................... 28
II. The court of appeals compounded its error in Dai
by failing to follow the ordinary remand rule ............. 35
Conclusion ................................................................................... 39
Appendix — Statutory provisions ........................................... 1a

(III)

IV
TABLE OF AUTHORITIES

Cases:

Page

Allentown Mack Sales & Service, Inc. v. National
Labor Relations Board, 522 U.S. 359 (1998) ................... 22
Anaya-Ortiz v. Holder, 594 F.3d 673
(9th Cir. 2010) ................................................................ 18, 26
Banks v. Chicago Grain Trimmers Assn.,
390 U.S. 459 (1968).............................................................. 22
Bare v. Barr, 975 F.3d 952 (9th Cir. 2020) .......................... 24
Biestek v. Berryhill, 139 S. Ct. 1148 (2019) ........................ 29
City of Canton v. Harris, 489 U.S. 378 (1989) .................... 25
Director, Office of Workers’ Compensation
Programs, v. Greenwich Collieries,
512 U.S. 267 (1994)........................................................ 21, 34
Doe v. Holder, 651 F.3d 824 (8th Cir. 2011) ........................ 32
Franchise Tax Board v. Hyatt, 139 S. Ct. 1485 (2019)...... 25
Gonzales v. Thomas, 547 U.S. 183 (2006).....12, 20, 35, 36, 38
Hu v. Holder, 652 F.3d 1011 (9th Cir. 2011) ................. 26, 27
INS v. Cardoza-Fonseca, 480 U.S. 421 (1987) .................... 21
INS v. Elias-Zacarias, 502 U.S. 478 (1992) ...... 12, 20, 21, 22
INS v. Orlando Ventura, 537 U.S. 12 (2002) ............. passim
Kalubi v. Ashcroft, 364 F.3d 1134
(9th Cir. 2004) .................................................... 10, 16, 26, 27
N-A-M-, In re, 24 I. & N. Dec. 336 (B.I.A. 2007) ............... 24
Nasrallah v. Barr, 140 S. Ct. 1683 (2020) ........................... 20
Navas v. INS, 217 F.3d 646 (9th Cir. 2000) ...... 10, 16, 26, 27
Russello v. United States, 464 U.S. 16 (1983) ..................... 31
SEC v. Chenery Corp., 332 U.S. 194 (1947)......................... 34
Vermont Yankee Nuclear Power Corp. v. Natural
Resources Defense Council, Inc., 435 U.S. 519
(1978) .................................................................................... 28

V
Statutes and regulations:

Page

Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No. 104-208,
Div. C, 110 Stat. 3009-546 .................................................. 20
Immigration and Nationality Act, 8 U.S.C. 1101
et seq. ...................................................................................... 3
8 U.S.C. 1101(a)(42)(A) ..................................................... 3
8 U.S.C. 1101(a)(42)(B) ..................................................... 3
8 U.S.C. 1158(a) ........................................................... 3, 1a
8 U.S.C. 1158(b)(1)(A) ................................................. 3, 3a
8 U.S.C. 1158(b)(1)(B)(ii) ............... 4, 13, 19, 27, 30, 32, 3a
8 U.S.C. 1158(b)(1)(B)(iii) .................................passim, 4a
8 U.S.C. 1182(a)(2)(A)(i)(II) ........................................... 15
8 U.S.C. 1229a ............................................................ 3, 13a
8 U.S.C. 1229a(a)(1) ................................................... 4, 13a
8 U.S.C. 1229a(c)(4) ................................................... 4, 21a
8 U.S.C. 1229a(c)(4)(A) ............................................. 4, 21a
8 U.S.C. 1229a(c)(4)(B) ...................... 5, 19, 27, 30, 32, 22a
8 U.S.C. 1229a(c)(4)(C) ...................... 5, 18, 29, 30, 33, 22a
8 U.S.C. 1231(b)(3) .................................................... 4, 37a
8 U.S.C. 1231(b)(3)(A) ........................................... 4, 5, 37a
8 U.S.C. 1231(b)(3)(B)(ii) .........................4, 16, 24, 25, 37a
8 U.S.C. 1231(b)(3)(C) ................................4, 5, 29, 30, 38a
8 U.S.C. 1252(a)(1)..................................................... 5, 50a
8 U.S.C. 1252(b)(2) .................................................... 5, 53a
8 U.S.C. 1252(b)(4) ........................... 24, 25, 26, 28, 33, 54a
8 U.S.C. 1252(b)(4)(B) ............ 6, 17, 18, 19, 20, 22, 34, 55a
REAL ID Act of 2005, Pub. L. No. 109-13, Div. B,
119 Stat. 302 .................................................................... 3, 29
5 U.S.C. 706(2)(E) .................................................................. 21
28 U.S.C. 2344 ........................................................................ 29

VI
Statutes and regulations—Continued:

Page

Cal. Health & Safety Code § 11377 (West 1999) ................ 14
Cal. Penal Code (West 1999):
§§ 236-237 ......................................................................... 14
§ 273.5(a)........................................................................... 14
8 C.F.R.:
Section 1003.1(b)................................................................ 5
Section 1003.1(d)(3) ................................................... 21, 33
Section 1208.16(b) .............................................................. 4
Section 1208.16(d)(2) ......................................................... 4
Miscellaneous:
Bureau of Democracy, Human Rights & Labor, U.S.
Dep’t of State, Country Report on Human Rights
Practices for 2016: China, https://www.justice.gov/
sites/default/files/pages/attachments/2017/03/06/
dos-hrr_2016_china.pdf (last visited Nov. 16, 2020)........ 38
H.R. Rep. No. 1980, 79th Cong., 2d Sess. (1946) ................ 34
S. Rep. No. 752, 79th Cong., 1st Sess. (1945)...................... 22
The American Heritage Dictionary of the English
Language (3d ed. 1996) .......................................... 19, 27, 32

In the Supreme Court of the United States
No. 19-1155
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
MING DAI
No. 19-1156
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
CESAR ALCARAZ-ENRIQUEZ
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE PETITIONER
OPINIONS BELOW

In Barr v. Dai, No. 19-1155 (Dai), the opinion of the
court of appeals (Dai Pet. App. 1a-67a) is reported at
884 F.3d 858. The order of the reconstituted panel of
the court of appeals adhering to its prior opinion following Judge Reinhardt’s death, along with Judge Trott’s
amended dissent (Dai Pet. App. 68a-109a), is reported
at 916 F.3d 731. The order of the court of appeals denying rehearing en banc (Dai Pet. App. 110a-157a) is reported at 940 F.3d 1143. The decisions of the Board of
Immigration Appeals (Dai Pet. App. 158a-164a) and the

(1)

2
immigration judge (Dai Pet. App. 165a-177a) are unreported.
In Barr v. Alcaraz-Enriquez, No. 19-1156 (Alcaraz),
the opinion of the court of appeals (Alcaraz Pet. App.
1a-4a) is not published in the Federal Reporter but is
reprinted at 727 Fed. Appx. 260. The order of the court
of appeals denying rehearing (Alcaraz Pet. App. 5a) is
unreported. The decisions of the Board of Immigration
Appeals (Alcaraz Pet. App. 6a-9a) and the immigration
judge (Alcaraz Pet. App. 10a-22a) are unreported.
JURISDICTION

In Dai, the judgment of the court of appeals was entered on March 8, 2018. A petition for rehearing was
denied on October 22, 2019 (Dai Pet. App. 110a-157a).
On January 10, 2020, Justice Kagan extended the time
within which to file a petition for a writ of certiorari to
and including February 19, 2020. On February 7, 2020,
Justice Kagan further extended the time to and including March 20, 2020. In Alcaraz, the judgment of the
court of appeals was entered on March 9, 2018. A petition for panel rehearing was denied on November 22,
2019 (Alcaraz Pet. App. 5a). On February 11, 2020, Justice Kagan extended the time within which to file a petition for a writ of certiorari to and including March 20,
2020. The petitions in both cases were filed on that date,
and were granted on October 2, 2020. The jurisdiction
of this Court rests on 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in the
appendix to this brief. App., infra, 1a-63a.

3
STATEMENT
A. Statutory Background

1. The Immigration and Nationality Act (INA),
8 U.S.C. 1101 et seq., authorizes the Attorney General
or the Secretary of Homeland Security to make a discretionary grant of asylum to an alien who establishes
that he is a “refugee,” which the INA defines as one who
is unwilling or unable to return to or avail himself of the
protection of his home country “because of persecution
or a well-founded fear of persecution on account of race,
religion, nationality, membership in a particular social
group, or political opinion.” 8 U.S.C. 1101(a)(42)(A);
8 U.S.C. 1158(b)(1)(A); see 8 U.S.C. 1101(a)(42)(B)
(providing that a person “who has been persecuted for
* * * resistance to a coercive population control program * * * shall be deemed to have been persecuted on
account of political opinion”). An alien may seek to establish his eligibility for asylum either by filing an affirmative asylum application that will be considered in
the first instance by an asylum officer in United States
Citizenship and Immigration Services in the Department of Homeland Security, see 8 U.S.C. 1158(a), or by
asserting his eligibility for asylum before an immigration judge (IJ) in the Department of Justice after removal proceedings have been initiated against him, see
8 U.S.C. 1229a.
As amended by the REAL ID Act of 2005, Pub. L.
No. 109-13, Div. B, 119 Stat. 302, the INA provides that
the “testimony of the applicant [for asylum] may be sufficient to sustain the applicant’s burden” of establishing
his refugee status without corroboration, “but only if
the applicant satisfies the trier of fact that the applicant’s testimony is credible, is persuasive, and refers to
specific facts sufficient to demonstrate that the applicant

4
is a refugee.” 8 U.S.C. 1158(b)(1)(B)(ii). In making that
determination, “the trier of fact may weigh the credible
testimony along with other evidence of record.” Ibid.
The statute further provides that the trier of fact should
consider the “totality of the circumstances” in making a
credibility determination. 8 U.S.C. 1158(b)(1)(B)(iii).
And finally, the statute provides that “[t]here is no presumption of credibility” for an alien’s testimony about
eligibility for asylum; “however, if no adverse credibility determination is explicitly made, the applicant or
witness shall have a rebuttable presumption of credibility on appeal.” Ibid.
2. The INA also authorizes an alien who has been
placed in removal proceedings to apply for protection
known as withholding of removal. 8 U.S.C. 1231(b)(3).
If the alien demonstrates that, “because of the alien’s
race, religion, nationality, membership in a particular
social group, or political opinion,” “the alien’s life or
freedom would be threatened” in the country to which
he would otherwise be removed, then the alien may not
be removed to that country. 8 U.S.C. 1231(b)(3)(A).
This protection is not applicable, however, “if the Attorney General decides that * * * the alien, having been
convicted by a final judgment of a particularly serious
crime[,] is a danger to the community of the United
States.” 8 U.S.C. 1231(b)(3)(B)(ii).
An alien who applies for withholding of removal
bears the burden of proving his eligibility for that form
of protection. 8 U.S.C. 1229a(c)(4)(A), 1231(b)(3)(C);
8 C.F.R. 1208.16(b) and (d)(2). The applicant’s entitlement to protection is evaluated in the first instance by
an IJ. 8 U.S.C. 1229a(a)(1) and (c)(4). In determining
whether an applicant has demonstrated that his life or
freedom would be threatened for a reason described in

5
Section 1231(b)(3)(A), “the trier of fact shall determine
whether the alien has sustained the alien’s burden of
proof, and shall make credibility determinations, in the
manner described in clauses (ii) and (iii) of section
1158(b)(1)(B),” described above. 8 U.S.C. 1231(b)(3)(C).
For all other determinations necessary for a grant of
withholding, the IJ is charged with “determin[ing]
whether or not the [applicant’s] testimony is credible, is
persuasive, and refers to specific facts sufficient to
demonstrate that the applicant has satisfied the applicant’s burden of proof.” 8 U.S.C. 1229a(c)(4)(B). “In determining whether the applicant has met such burden,
the immigration judge shall weigh the credible testimony along with other evidence of record.” Ibid. The
statute further provides that the IJ should consider the
“totality of the circumstances” in making a credibility
determination. 8 U.S.C. 1229a(c)(4)(C). And as with eligibility for asylum, the statute provides that “[t]here is
no presumption of credibility” for the applicant’s testimony about eligibility for withholding of removal; again,
“however, if no adverse credibility determination is explicitly made, the applicant or witness shall have a rebuttable presumption of credibility on appeal.” Ibid.
3. An alien who has been found ineligible for asylum
or withholding of removal and is ordered removed by an
IJ may appeal to the Board of Immigration Appeals
(Board or BIA). See 8 C.F.R. 1003.1(b). If the Board
affirms the IJ, the alien may file a “petition for review”
in the court of appeals for the judicial circuit in which
the IJ completed the proceedings. 8 U.S.C. 1252(b)(2);
see 8 U.S.C. 1252(a)(1). The INA provides that on petition for review, the court of appeals must treat “the administrative findings of fact [as] conclusive unless any

6
reasonable adjudicator would be compelled to conclude
to the contrary.” 8 U.S.C. 1252(b)(4)(B).
B. Procedural History
1. Dai

a. Respondent Ming Dai, a native and citizen of
China, entered the United States on a tourist visa in
2012. Dai Pet. App. 5a. Later that year, Dai filed an
affirmative application for asylum. J.A. 140-155. Dai
claimed that in 2009, after his wife became pregnant
with their second child, family-planning officials and police officers came to his home to take his wife to have a
forced abortion. J.A. 154. According to Dai, he tried to
prevent them from taking her, resulting in a physical
altercation in which police dislocated Dai’s shoulder and
broke one of his ribs. J.A. 70-73, 154. Dai asserted that
he was subsequently detained in custody for ten days,
and was released only after he signed a confession admitting to fighting with the police. J.A. 59-62, 67-68.
Dai claimed that when he arrived home, he learned his
wife had been subjected to a forced abortion and that an
intrauterine device had been implanted without her consent. J.A. 120, 154. According to Dai, he was subsequently fired from his job, his wife was demoted, and his
daughter was denied admission to superior schools, all
because of his resistance to China’s family-planning policies. J.A. 155. In applying for asylum, Dai stated that
“I eventually found a way to reach the USA,” and asked
that the government “[p]lease grant me asylum so that
I can bring my wife and daughter to safety in the USA.”
Ibid.
An asylum officer interviewed Dai in connection with
his asylum application. J.A. 109-126. During the interview, the asylum officer asked Dai whether he had applied with anyone else for his visa to enter the United

7
States. J.A. 115. Dai stated that he had not. Ibid. And
when the officer asked Dai whether his wife and daughter had travelled to anywhere other than Taiwan, Hong
Kong, and Australia, Dai likewise answered that they
had not. J.A. 117.
Government records indicated, however, that Dai’s
wife and daughter had both traveled to the United
States with him in January 2012. J.A. 124-125. Unlike
Dai, though, they returned to China the following month.
Ibid. When the asylum officer asked Dai to explain why
he had not disclosed that information on his application
or in his responses to interview questions, Dai paused
for a long time before admitting that he was afraid to
say that his wife and daughter had come to the United
States, because he would then be asked why they had
gone back to China. Ibid. After being asked to tell the
“real story,” Dai said that he “wanted a good environment” for his daughter; that his daughter returned to
China to go to school and his wife returned to her job;
and that Dai did not have a job in China and that was
why he had stayed in the United States. Id. at 112. The
asylum officer declined to grant Dai’s affirmative application for asylum. Dai Pet. App. 6a, 168a-169a.
b. The Department of Homeland Security thereafter initiated removal proceedings, and Dai renewed his
application for asylum and sought withholding of removal. Dai Pet. App. 6a, 168a-169a. During crossexamination before an IJ, Dai “hesitated at some
length” when asked about why he had not disclosed that
his wife and daughter had joined him in the United
States, and “appeared nervous and at a loss for words.”
Id. at 170a-171a. He eventually conceded that he had
been “afraid” to answer why his wife and daughter had
gone back, and confirmed that the “real story” as to why

8
his family traveled to the United States and returned to
China, while he stayed here, was that he wanted “a good
environment” for his child and because his wife had a
job and he did not. J.A. 91-94. Dai further testified that
his wife and daughter had returned to China because
his father-in-law was in poor health and needed attention, and his daughter needed to graduate from high
school in China. J.A. 95. Asked why he did not return
to China with his family, Dai responded, “[b]ecause at
that time, I was in a bad mood and I couldn’t get a job,
so I want to stay here for a bit longer and another friend
of mine is also here.” J.A. 103.
The IJ found Dai removable and denied his applications for asylum and withholding of removal. Dai Pet.
App. 176a. The IJ concluded that Dai “failed to meet
his burden of proving eligibility for asylum.” Id. at
169a. “The principal area of concern with regard to
[Dai’s] testimony,” the IJ observed, “arose during the
course of [Dai’s] cross-examination” when Dai was
“asked about various aspects of his interview with an
Asylum Officer.” Ibid.
The IJ explained that both Dai’s testimony and his
answers to the asylum officer “clearly indicate that
[Dai] failed to spontaneously disclose that his wife and
daughter came with him and then returned to China.”
Dai Pet. App. 173a. Dai had “paused at length, both
before the Court and before the Asylum Officer, when
asked about this topic.” Ibid. The IJ found that significant, because Dai’s “claim of persecution is founded on
the alleged forced abortion inflicted upon his wife.” Id.
at 174a. The IJ concluded, “I do not find that [Dai’s]
explanation for her return to China while he remained
here [is] adequate.” Id. at 175a. While Dai “has stated
that he was in a bad mood and that he had found a job

9
and had a friend here,” that “his daughter’s education
would be cheaper in China,” and that “his wife wanted
to go to take care of her father,” the IJ concluded that
those reasons would not have been “sufficiently substantial” to explain why Dai’s wife and daughter—but
not Dai himself—made the “free choice to return to
China after having allegedly fled that country following
his wife’s and his own persecution.” Ibid. “Given that
[Dai] has failed to meet his burden of proof for asylum,”
the IJ found that “he has necessarily failed to meet the
higher burden for withholding of removal” as well. Id.
at 176a.
c. The BIA “adopt[ed] and affirm[ed]” the IJ’s decision, concluding that the IJ had “correctly denied
[Dai’s] applications for failure to meet his burden of
proof.” Dai Pet. App. 163a. The BIA determined that
Dai’s “family voluntarily returning” and Dai’s “not being truthful about it is detrimental to his claim and is
significant to his burden of proof.” Id. at 163a-164a.
The Board further stated that the IJ “need not have
made an explicit adverse credibility finding to nevertheless determine that [Dai] did not meet his burden of
proving his asylum claim.” Id. at 164a.
d. Dai filed a petition for review in the Ninth Circuit,
which was granted by a divided panel. Dai Pet. App.
1a-67a. In an opinion by Judge Reinhardt, the court of
appeals held that neither the IJ nor the BIA had made
an explicit finding that Dai’s testimony was not credible,
and that “in the absence of an explicit adverse credibility finding by the IJ or the BIA,” an asylum applicant’s

10
testimony must be “deemed credible.” Id. at 12a-14a. 1
The court based that result on circuit precedent predating the amendments made by the REAL ID Act regarding the alien’s burden of proof and the assessment
of credibility. The court described that precedent as
holding “that in the absence of an explicit adverse credibility finding by the IJ or the BIA[, the court is] required to treat the [alien’s] testimony as credible.” Id.
at 13a (citing Kalubi v. Ashcroft, 364 F.3d 1134, 1137
(9th Cir. 2004); Navas v. INS, 217 F.3d 646, 652 n.3 (9th
Cir. 2000)). The court acknowledged (id. at 13a-14a)
that Congress, in the REAL ID Act, provided for a “rebuttable presumption of credibility on appeal” when “no
adverse credibility determination is explicitly made,”
8 U.S.C. 1158(b)(1)(B)(iii). But the court concluded that
the statutory rebuttable presumption applies only “on
appeal” to the Board, and does not apply on petition for
review in the court of appeals. Dai Pet. App. 14a (citation omitted). The court therefore concluded that Section 1158(b)(1)(B)(iii) did not override circuit precedent
it described as requiring the court to treat his testimony
as credible. Id. at 16a-17a.
In light of that rule, the court of appeals held that
Dai’s testimony was sufficient to carry his burden, because Dai “testified to sufficient facts to demonstrate
his eligibility for asylum.” Dai Pet. App. 24a. The court
held that the Board’s focus on Dai’s “not being truthful,” id. at 164a, represented an “attempt[] to impermissibly undermine the credibility” that Ninth Circuit
Judge Reinhardt passed away while the government’s petition
for rehearing was pending, and Judge Murguia was selected to replace Judge Reinhardt on the panel. Dai Pet. App. 68a n.**. Judge
Murguia and Chief Judge Thomas—who was a member of the original panel—adhered to Judge Reinhardt’s opinion. See ibid.
1

11
precedent dictated must be accorded to Dai’s testimony,
id. at 24a. See id. at 23a (concluding that it was inappropriate to attach significance to “concealment” by
Dai that might in other circumstances have “undermine[d] [Dai’s] credibility”). The court further held
that although the Board must “ ‘weigh the credible testimony along with other evidence of record,’ 8 U.S.C.
1158(b)(1)(B)(ii)” to determine the persuasiveness of
the alien’s testimony, id. at 22a, once credibility is decided—in this case, the court determined, by the failure
of the IJ or the Board to make an adverse credibility
finding—“the issue is settled.” Ibid. “Credibility concerns that do not justify an adverse credibility finding
cannot be smuggled into the persuasiveness inquiry so
as to undermine the finding of credibility [that the court
is] required to afford Dai’s testimony.” Id. at 22a-23a.
Based on that rationale, the court of appeals held
that Dai was eligible for asylum, and remanded to the
Board for the discretionary determination of whether to
grant asylum. Dai Pet. App. 25a. The court further determined that the same analysis that led it to conclude
that Dai was eligible for asylum also established that
Dai was entitled to withholding of removal, and it instructed the agency to grant Dai withholding of removal
on remand. Id. at 25a-26a.
Judge Trott dissented. Dai Pet. App. 68a-109a. He
criticized the majority for employing what he referred
to as a “meritless irrebuttable presumption of credibility” that is inconsistent with the statutory limits on judicial review of removal orders. Id. at 69a. In his view,
under the substantial-evidence standard of review,
“[t]he sole issue should be whether [respondent’s] unedited presentation compels the conclusion that he carried his burden,” such that “no reasonable factfinder

12
could fail to find his evidence conclusive.” Ibid. (emphasis omitted); see id. at 108a (quoting INS v. EliasZacarias, 502 U.S. 478, 483-484 (1992)). Pointing to inconsistencies in Dai’s asylum application and statements that had been identified by the IJ and the Board,
Judge Trott concluded that no such conclusion was compelled here, and that the majority’s contrary ruling was
“another example of [the Ninth Circuit’s] intransigence” in immigration cases. Id. at 76a.
Beyond his disagreement with the majority’s presumption of credibility, Judge Trott also criticized the
majority’s decision to conclusively declare Dai eligible
for asylum and entitled to withholding of removal, rather than remanding to the Board to allow it to make
those determinations in light of the court of appeals’ announced standard. Dai Pet. App. 107a-109a. Judge
Trott noted that this Court had summarily reversed the
Ninth Circuit on several occasions for making that same
error, see ibid. (citing Gonzales v. Thomas, 547 U.S.
183 (2006) (per curiam), and INS v. Orlando Ventura,
537 U.S. 12 (2002) (per curiam)), and wrote that “the
majority opinion follows in our tradition of seizing authority that does not belong to us,” id. at 109a.
e. The court of appeals denied the government’s petition for rehearing en banc, with ten active judges dissenting from, and two senior judges disagreeing with,
that decision. Dai Pet. App. 110a-157a.
Judge Callahan, joined by Judges Bybee, Bea, M.
Smith, Ikuta, Bennett, R. Nelson, Bade, Collins, and
Lee, wrote that the majority had “take[n] the extraordinary position of holding that, absent an explicit adverse credibility ruling, an IJ must take as true an asylum applicant’s testimony that supports a claim for asy-

13
lum, even in the face of other testimony from the applicant that would undermine an asylum claim.” Dai Pet.
App. 123a. She explained that the panel majority had
imposed that rule in two steps: first, by holding that in
the absence of an adverse credibility finding, the court
must deem the alien’s testimony credible; and second,
by holding that any evidence that would cast doubt on
the alien’s credibility cannot be relied upon to find the
alien’s testimony not to be sufficiently persuasive to
carry his burden of proof. Id. at 131a-132a. Judge Callahan wrote that the panel majority’s approach “ignores
the realities of factfinding,” explaining that “[ j]ust because testimony is credible (i.e., believable), it doesn’t
mean it must be wholly accepted as the truth. A factfinder may resolve factual issues against a party without expressly finding that party not credible.” Id. at
123a-124a. That principle is confirmed here, she wrote,
by the statutory provision allowing the trier of fact to
“weigh the credible testimony along with other evidence
of record,” 8 U.S.C. 1158(b)(1)(B)(ii). Dai Pet. App.
134a. “If credible testimony must be accepted as true,”
Judge Callahan noted, “there would be nothing for the
trier of fact to ‘weigh.’ ” Ibid.
Judge Collins also issued a dissent from the denial of
rehearing en banc, joined by Judges Bybee, Bea, Ikuta,
Bennett, R. Nelson, and Bade. Dai Pet. App. 140a-157a.
Judge Collins agreed with the criticisms in Judge Callahan’s dissent, but added that “the problems with the
panel majority’s opinion run even deeper” by requiring
that “unless the agency has made an explicit finding
that the applicant’s testimony is not credible, this court
will conclusively presume that testimony to be credible.” Id. at 141a. In Judge Collins’ view, following the

14
REAL ID Act, any presumption of credibility can be rebutted (before the Board or the court of appeals) “if a
review of the record otherwise makes clear that (despite
the lack of an express credibility determination) the IJ
did not believe certain aspects of the applicant’s statements.” Id. at 147a-148a. Judge Collins was of the view
that the “rebuttable presumption” created by the
REAL ID Act should be applicable in both the courts of
appeals and before the Board. Id. at 148a-150a. But if
that provision did not apply in the courts of appeals, he
noted, that would mean that the courts should not apply
any presumption of credibility. Id. at 150a-151a.
Two senior judges—Judge Trott, in an opinion that
restated some points from his panel dissent, and Judge
O’Scannlain, who noted that he agreed with Judge Callahan’s dissent from denial of rehearing en banc—also
expressed disagreement with the panel’s opinion. Dai
Pet. App. 111a-122a, 140a.
2.

Alcaraz-Enriquez

a. Respondent Cesar Alcaraz-Enriquez (Alcaraz), a
native and citizen of Mexico, entered the United States
for the first time in 1986 or 1987. Alcaraz Pet. App. 16a17a. He was previously removed in 2001, 2005, and
2007. Id. at 17a-18a. During his previous periods in the
United States, Alcaraz was convicted of multiple
crimes. J.A. 230-254. Of particular relevance here, Alcaraz was convicted in 1999 of inflicting corporal injury
on a spouse or cohabitant in violation of Cal. Penal Code
§ 273.5(a) (West 1999), false imprisonment in violation
of Cal. Penal Code §§ 236-237 (West 1999), and possession of a controlled substance in violation of Cal. Health
& Safety Code § 11377 (West 1999). J.A. 241-242.
b. Alcaraz again attempted to enter the United
States unlawfully in December 2013. Alcaraz Pet. App.

15
11a. Alcaraz was detained, and in proceedings before
an IJ he conceded that he was removable under 8 U.S.C.
1182(a)(2)(A)(i)(II) because of his prior conviction for
possession of a controlled substance. Alcaraz Pet. App.
11a. Alcaraz contended, however, that he was entitled
to withholding of removal, based on allegations that he
had previously been assaulted by police in Mexico and
that he would be subject to abuse if he returned. Id. at
11a, 18a-21a.
The IJ determined that Alcaraz was not eligible for
withholding of removal in light of Alcaraz’s prior conviction for inflicting corporal injury on a spouse or cohabitant. Alcaraz Pet. App. 12a-15a. In making that
determination, the IJ considered a probation report
created in connection with that earlier conviction, which
contained witnesses’ descriptions of how Alcaraz had
repeatedly beaten his girlfriend, dragged her back into
a residence when she attempted to flee, thrown her
against a staircase, kicked her in the legs and head, and
sexually assaulted her. Id. at 12a-14a; J.A. 218-222.
The IJ also considered more generally the fact that the
charged crime was inherently serious, with the prosecution being required to prove that the defendant willfully inflicted harm on the victim, resulting in a traumatic condition. Alcaraz Pet. App. 14a-15a. Against
those considerations, the IJ weighed Alcaraz’s testimony during the removal proceedings about the circumstances of the earlier conviction, in which Alcaraz
acknowledged hitting his girlfriend but downplayed the
seriousness of the assault and claimed that it had been
prompted by his belief that she was hitting his minor
daughter. Id. at 14a; J.A. 189-193. Based on his assessment of Alcaraz’s testimony and the other evidence, the

16
IJ found that the offense qualified as a “particularly serious crime” under Section 1231(b)(3)(B)(ii), and
showed that Alcaraz presented “a danger to the community of the United States” for purposes of that provision.
8 U.S.C. 1231(b)(3)(B)(ii); see Alcaraz Pet. App. 14a15a. The IJ therefore determined that Alcaraz was not
eligible for withholding of removal. Alcaraz Pet. App.
14a-15a.
c. The Board affirmed. Alcaraz Pet. App. 6a-9a. It
held that the IJ had “properly considered all evidence
of record in assessing the seriousness of [Alcaraz’s] conviction [for inflicting corporal injury,] including weighing and comparing [Alcaraz’s] testimony at the hearing
and the probation officer’s report issued during the time
of his conviction.” Id. at 8a. It observed that “[i]n
weighing the evidence of record, the [IJ] was not required to adopt [Alcaraz’s] version of events over other
plausible alternatives,” and held that “[Alcaraz] did not
satisfy his burden of establishing that his conviction for
corporal injury under section 273.5(A) was not for a particularly serious crime.” Ibid.
d. The court of appeals granted Alcaraz’s petition
for review in part, remanding to the Board for reconsideration of his claim for withholding of removal. See Alcaraz Pet. App. 1a-4a. The court held that under its decisions in Navas, supra, and Kalubi, supra, “[w]here
the BIA does not make an explicit adverse credibility
finding, [the court] must assume that [the petitioner’s]
factual contentions are true.” Alcaraz Pet. App. 2a (citation omitted; brackets in original). Applying that
precedent here, the court held that “the BIA erred
when it credited the probation report over Alcaraz’s testimony without making an explicit adverse credibility
finding as to Alcaraz.” Id. at 3a. The court also held

17
that “[t]he BIA’s failure to give Alcaraz an opportunity
to confront” the “witnesses whose testimony was embodied in the probation report * * * was error.” Ibid.
Accordingly, it remanded to the Board for reconsideration of Alcaraz’s claim. Ibid.
e. The government filed a petition for panel rehearing, asking the panel to hold that petition while the en
banc court of appeals considered the government’s petition for rehearing en banc in Dai, which the court of
appeals had decided the day before its decision in Alcaraz. See Alcaraz Pet. App. 1a, 5a; Dai Pet. App. 1a.
After the court of appeals denied the petition for rehearing en banc in Dai, Dai Pet. App. 110a, the panel
denied the government’s petition for panel rehearing in
Alcaraz, noting that the petition for rehearing en banc
in Dai had “squarely presented a question bearing on
the merits of this case” but had “failed to receive a majority of the votes of the nonrecused active judges in favor of en banc consideration and was thus denied.” Alcaraz Pet. App. 5a.
SUMMARY OF ARGUMENT

I. The IJs who heard respondents’ testimony determined that respondents had not established the factual
predicates necessary to be eligible for the relief and
protection they seek. In both cases, the Board agreed.
The INA, codifying the substantial-evidence standard
of review in administrative law generally, thus required
the court of appeals to accept those determinations “unless any reasonable adjudicator would be compelled to
conclude to the contrary.” 8 U.S.C. 1252(b)(4)(B). That
standard should have dictated the outcomes in these
cases: even if the court of appeals might have assessed
the evidence differently, the decisions that the IJs and

18
the Board reached here unquestionably reflected a reasonable view of the evidence before them.
Rather than adhere to the INA’s statutory standard
of review, however, the court of appeals in Alcaraz applied circuit precedent under which, because the IJs
had not explicitly found respondents’ testimony incredible, “[the court] must assume that the [alien’s] factual
contentions are true.” Alcaraz Pet. App. 2a (quoting
Anaya-Ortiz v. Holder, 594 F.3d 673, 679 (9th Cir.
2010)) (emphasis added; first set of brackets in original). And in Dai, the court cited prior circuit decisions
so holding and applied such a rule in substance, see Dai
Pet. App. 13a, 16a, 22a-23a, as Judge Callahan explained in dissent, see id. at 124a, 127a-128a, 131a-133a.
That was error: the INA does not authorize the courts
of appeals to presume that an alien’s testimony is true
where the Board has found otherwise.
Respondents attempt to recast the court of appeals’
decisions as embodying merely a presumption of “credibility,” rather than truthfulness. But a presumption of
credibility likewise does not support the Ninth Circuit’s
disposition of these cases, for two reasons. First, the
INA also does not establish a presumption of credibility
applicable in the courts of appeals. On the contrary, it
establishes a general rule that “[t]here is no presumption of credibility” in assessing an alien’s eligibility for
asylum or entitlement to withholding of removal,
8 U.S.C. 1158(b)(1)(B)(iii); see 8 U.S.C. 1229a(c)(4)(C),
subject to a single exception that is inapplicable in a
court of appeals.
Second, even if the court of appeals could presume
that respondents’ testimony in support of their eligibility for relief or protection was credible, it does not follow that the Board was “[un]reasonable,” 8 U.S.C.

19
1252(b)(4)(B), in concluding that other evidence (including, in Dai’s case, other aspects of his own testimony)
outweighed that eligibility-supporting testimony or
that the alien’s testimony was insufficiently persuasive
to carry his burden of proof. To say that evidence is
“credible” means simply that it is “[c]apable of being believed.” The American Heritage Dictionary of the English Language 438 (3d ed. 1996) (American Heritage
Dictionary). It does not mean that the evidence must
be believed. Indeed, the INA expressly contemplates
that IJs will “weigh the credible testimony” against
other evidence, including other credible testimony, in
order to decide which evidence is most “persuasive.”
8 U.S.C. 1158(b)(1)(B)(ii); see 8 U.S.C. 1229a(c)(4)(B).
So long as the result of that weighing is one that a “reasonable adjudicator” could reach, the court of appeals
must sustain it. 8 U.S.C. 1252(b)(4)(B).
II. After setting aside a reasonable decision of the
Board that it should have upheld, the court of appeals
compounded its error in Dai by barring the Board from
further considering Dai’s eligibility for asylum and entitlement to withholding of removal. Rather than remand to the Board for reconsideration of those issues in
light of its opinion, the court resolved them for itself in
Dai’s favor. Doing so was inconsistent with this Court’s
admonitions that when a court of appeals determines
that administrative findings are insufficient to support
the denial of asylum, “the proper course, except in rare
circumstances, is to remand to the agency for additional
investigation or explanation.” INS v. Orlando Ventura,
537 U.S. 12, 16 (2002) (per curiam) (citation omitted).
And the court of appeals’ disregard of the “ordinary remand requirement,” ibid. (citation omitted), was particularly egregious here, where there is simply no basis for

20
contending that the result the court of appeals imposed
was the only possible result the Board could have
reached on further consideration. This Court has summarily reversed the Ninth Circuit for similar errors before. See id. at 18; Gonzales v. Thomas, 547 U.S. 183,
187 (2006) (per curiam). If the Court reaches this second question at all, it should reverse the Ninth Circuit
for the error again here.
ARGUMENT
I. THE COURT OF APPEALS ERRED BY FAILING TO
APPLY THE SUBSTANTIAL-EVIDENCE STANDARD
OF REVIEW REQUIRED BY THE INA
A. The INA Requires A Court Of Appeals To Sustain The
Board’s Determination That An Alien Has Not Proven
His Eligibility For Relief, So Long As That
Determination Is Supported By Substantial Evidence

Through an amendment to the INA in the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, Pub. L. No. 104-208, Div. C, 110 Stat. 3009-546,
Congress directed that a court of appeals reviewing an
order of removal must accept the Board’s findings of
fact as “conclusive unless any reasonable adjudicator
would be compelled to conclude to the contrary.” 8
U.S.C. 1252(b)(4)(B). In doing so, Congress codified
this Court’s holding in INS v. Elias-Zacarias, 502 U.S.
478 (1992), that an asylum applicant who “seeks to obtain judicial reversal of the BIA’s determination” that
he is ineligible for asylum or not entitled to withholding
of removal “must show that the evidence he presented
was so compelling that no reasonable factfinder could
fail to find the requisite fear of persecution,” id. at 483484. See Nasrallah v. Barr, 140 S. Ct. 1683, 1692 (2020).

21
That standard is, to state the obvious, “highly deferential.” Nasrallah, 140 S. Ct. at 1692. It is also familiar,
embodying “the substantial-evidence standard” that is
common throughout administrative law. Ibid.; see
5 U.S.C. 706(2)(E) (allowing a reviewing court to set aside
agency action that is “unsupported by substantial evidence”). And as with the application of the substantialevidence standard in other contexts, application of the
substantial-evidence standard to removal proceedings
means that it is the agency—not a reviewing court—
that has responsibility to choose from among the competing factual narratives the record before it could plausibly support. Congress’s choice in this regard reflects
the fact that IJs and the Board have “examined more of
these cases than any court ever has or ever can,” INS v.
Cardoza-Fonseca, 480 U.S. 421, 460 (1987) (Powell, J.,
dissenting), and are thus particularly well-suited to
evaluating the sorts of evidentiary claims that frequently arise in removal proceedings. See INS v. Orlando Ventura, 537 U.S. 12, 17 (2002) (per curiam) (explaining that the INA entrusts the agency with making
evidentiary determinations so that it can “bring its expertise to bear” on immigration-related questions). 2
Accordingly, while neither the IJ nor the Board may
“arbitrarily disbelieve credible evidence” offered in
support of an alien’s claim, they may decline to find that
evidence persuasive (and thus find the alien ineligible
for relief ) if the record contains “contrary evidence” of
the “kind and quality” that makes such a decision reasonable. Director, Office of Workers’ Compensation
Further reflecting the expertise that IJs develop through their
experience hearing large numbers of removal cases, the Board has
directed that even within the agency, IJs’ factual determinations are
reviewed under a clear-error standard. See 8 C.F.R. 1003.1(d)(3).
2

22
Programs v. Greenwich Collieries, 512 U.S. 267, 279
(1994) (quoting S. Rep. No. 752, 79th Cong., 1st Sess. 22
(1945) (Senate Report on the Administrative Procedure
Act)) (emphasis added). It is likewise “within the province of the” IJ or the Board “to credit part of [a] witness’
testimony without accepting it all,” Banks v. Chicago
Grain Trimmers Assn., 390 U.S. 459, 467 (1968), and
thus to conclude that the portions of an alien’s testimony that undermine his eligibility for relief outweigh
those portions that support such eligibility. So long as
“on [the agency] record it would have been possible for
a reasonable jury to reach the Board’s conclusion,” Allentown Mack Sales & Service, Inc. v. National Labor
Relations Board, 522 U.S. 359, 366-367 (1998), a reviewing court may not set the Board’s determination aside.
See 8 U.S.C. 1252(b)(4)(B); Elias-Zacarias, 502 U.S. at
483-484.
B. The Board’s Determinations Here Easily Satisfy The
Substantial-Evidence Standard

Under a proper application of the substantialevidence standard codified in Section 1252(b)(4)(B), the
court of appeals should have rejected respondents’ challenges to the Board’s determinations that Dai was ineligible for asylum and that neither respondent was eligible for withholding of removal. We address each case
in turn.
1. In Dai, the IJ focused on specific problems with
Dai’s testimony that led the IJ to find Dai had not
proven past persecution or a well-founded fear of future
persecution. See Dai Pet. App. 175a-176a. Specifically,
the IJ “d[id] not find that [Dai’s] explanations for [his
wife’s] return to China while he remained here are adequate.” Id. at 175a. Dai “allegedly fled [China] following his wife’s and his own persecution”; but if that were

23
really the true reason they had left China, the IJ concluded, Dai’s wife would have needed more “substantial” “reasons” for returning than the ones Dai offered.
Ibid.; see id. at 174a (expressing skepticism about “the
alleged forced abortion inflicted upon his wife”). Especially given Dai’s “lack of forthrightness” about those
facts, the IJ reasonably found that Dai “failed to meet
his burden” of showing his eligibility for asylum or entitlement to withholding of removal. Id. at 173a, 176a.
The Board “adopt[ed] and affirm[ed]” the IJ’s decision, amplifying in the process some of the IJ’s key findings. Dai Pet. App. 163a. It explained that Dai “failed
to disclose” his wife’s voluntary return precisely because he recognized that disclosing it “would be perceived as inconsistent with his claims of past and feared
future persecution”—i.e., his claim of “allegedly fleeing” China because of coercive population control policies. Id. at 163a-164a. Both Dai’s “family voluntarily
returning and his not being truthful about it,” the Board
found, thus “significant[ly]” undermined Dai’s attempt
to prove he had previously faced persecution and feared
he would face it again if he returned to China. Id. at
164a.
Perhaps a different factfinder could have concluded
that Dai’s family returned to China despite a wellfounded fear of persecution, because “his daughter’s education would be cheaper” there and “his wife wanted
to go to take care of her father.” Dai Pet. App. 175a.
But in light of the evidence in the administrative record,
the decisions of the IJ and Board to reject those reasons
as “not * * * sufficiently substantial” to explain his
family’s return if they had truly been subject to persecution, ibid., were well within the range of conclusions

24
that a “reasonable adjudicator” could reach, 8 U.S.C.
1252(b)(4).
2. In Alcaraz, too, substantial evidence supports the
Board’s determination that Alcaraz’s prior conviction
for domestic violence qualified as a “particularly serious
crime,” 8 U.S.C. 1231(b)(3)(B)(ii), and thus made him ineligible for withholding of removal. The IJ observed
that the nature of the crime of conviction was inherently
serious, because the prosecution had been required to
prove that the defendant willfully inflicted harm on the
victim, resulting in a traumatic condition. Alcaraz Pet.
App. 14a-15a. The IJ also considered a probation report
containing witnesses’ statements that Alcaraz had sexually assaulted his girlfriend and struck her in particularly vicious ways. 3 Id. at 12a-14a; see pp. 15-16, supra.
The IJ found that evidence outweighed respondent’s
testimony, offered during the removal proceeding, that
his crime had not been particularly serious because,
although he had struck his girlfriend while using methamphetamines, he had done so only because she had, he
maintained, hit their daughter. Alcaraz Pet. App. 14a;
see id. at 12a-13a, 17a; J.A. 176-178, 189-193. The Board
affirmed, concluding that the IJ had “properly considered all evidence of record in assessing the seriousness
of the respondent’s conviction, including weighing and
comparing the respondent’s testimony at the hearing
and the probation officer’s report issued during the time
of his conviction.” Id. at 8a.
The Ninth Circuit has held that in making a particularly serious
crime determination, “[t]he factors to be considered are: (1) ‘the
nature of the conviction,’ (2) ‘the type of sentence imposed,’ and (3)
‘the circumstances and underlying facts of the conviction.’ ” Bare v.
Barr, 975 F.3d 952, 961-962 (2020) (quoting In re N-A-M-, 24 I. &
N. Dec. 336, 342 (B.I.A. 2007)).
3

25
Again, perhaps it is conceivable that a different factfinder, presented with the same evidence, would have
concluded that Alcaraz’s conviction for willfully inflicting harm on his girlfriend, producing a traumatic condition, had occurred in a way that made it not a “particularly serious crime.” 8 U.S.C. 1231(b)(3)(B)(ii). But
given the evidence of record, including the probation report containing witnesses’ descriptions of Alcaraz’s engaging in especially vicious conduct, the Board’s determination was unquestionably one that a “reasonable adjudicator” could reach, 8 U.S.C. 1252(b)(4). 4

As the government observed in recommending that the Court
not grant plenary review in Alcaraz but instead hold the Alcaraz
petition pending a decision in Dai, see Alcaraz Cert. Reply Br. 1112, the court of appeals separately determined that Alcaraz should
have been given an opportunity to cross-examine the witnesses
whose statements appeared in the probation report. See Alcaraz
Pet. App. 2a-3a. Alcaraz did not assert in his brief in opposition that
the decision below could be affirmed on that alternative basis, however, and indeed argued that his case provided a better vehicle than
Dai for addressing the validity of the Ninth Circuit’s presumption
about an alien’s testimony. See Alcaraz Br. in Opp. 30-35. Alcaraz
has thus waived any argument that the IJ’s decision to admit the
probation report without allowing for cross-examination would provide a sufficient basis, by itself, for the Court to affirm the court
of appeals’ judgment. See, e.g., Franchise Tax Board v. Hyatt,
139 S. Ct. 1485, 1491 n.1 (2019); City of Canton v. Harris, 489 U.S.
378, 383-384 (1989). In any event, the court of appeals’ treatment of
the government’s petition for rehearing reflects a recognition that
if Ninth Circuit precedent regarding the presumption it applied
were to be overruled, that might change the proper disposition of
the case; there otherwise would have been no reason to hold in abeyance the petition for panel rehearing of its unpublished decision in
Alcaraz. See Alcaraz Cert. Reply Br. 11-12; Alcaraz Pet. App. 5a.
4

26
C. The Court of Appeals Overturned The Board’s Reasonable
Determinations Based On An Erroneous Judicially
Created Presumption

Because the Board’s determinations in both cases
reflected reasonable views of the record, Section
1252(b)(4) required the court of appeals to accept them.
The court did not do so. Instead, the court in Alcaraz
applied circuit precedent under which, “[w]here the
BIA does not make an explicit adverse credibility finding, [the court of appeals] must assume that [the alien’s]
factual contentions are true.” Alcaraz Pet. App. 2a
(quoting Anaya-Ortiz v. Holder, 594 F.3d 673, 679 (9th
Cir. 2010)) (first set of brackets in original). And in Dai,
the court cited prior circuit decisions so holding and applied such a rule in substance, see Dai Pet. App. 13a14a (discussing Hu v. Holder, 652 F.3d 1011, 1013 n.1
(9th Cir. 2011); Kalubi v. Ashcroft, 364 F.3d 1134, 1137
(9th Cir. 2004); Navas v. INS, 217 F.3d 646, 652 n.3 (9th
Cir. 2000)), 16a, 22a-23a, as Judge Callahan explained
in dissent, see id. at 124a, 127a-128a, 131a, 132a-133a;
see Dai Pet. App. 13a-14a. Because the Board’s factual
determinations were contrary to testimony that was
covered in each case by the Ninth Circuit’s judicially
created presumption, the court granted the petitions for
review. That was error. 5

At the certiorari stage, Dai argued that the court of appeals had
not applied a presumption of truthfulness in his case, but only a
more limited presumption of credibility. See Dai Br. in Opp. 13-17.
As the judges dissenting from rehearing en banc below explained,
the panel majority applied a presumption of truthfulness in substance, even though it did not explicitly state that it was presuming
Dai’s testimony was “true.” See Dai Pet. App. 132a (Callahan, J.,
5

27
Nothing in the INA authorizes a court of appeals to
concluded that an alien’s “factual contentions are true,”
and that contrary factual determinations by the IJ or
Board accordingly are impermissible, merely because
the agency decisions do not contain an “explicit adverse
credibility finding.” Alcaraz Pet. App. 2a (citation omitted). On the contrary, the INA provides that “[i]n determining whether the applicant [for asylum] has met
the applicant’s burden, the trier of fact may weigh the
credible testimony along with other evidence of record.”
8 U.S.C. 1158(b)(1)(B)(ii); see 8 U.S.C. 1229a(c)(4)(B)
(“In determining whether the applicant [for withholding of removal] has met [the applicant’s] burden, the immigration judge shall weigh the credible testimony
along with other evidence of record.”). This provision
means that even if the trier of fact concludes that some
or all of the alien’s testimony may be “credible”—i.e.,
“[c]apable of being believed,” American Heritage Dictionary 438—the trier of fact remains free to conclude
that the testimony’s probative force is outweighed by
“other evidence” that the trier of fact finds more persuasive.
8 U.S.C. 1158(b)(1)(B)(ii); see 8 U.S.C.
dissenting from denial of rehearing en banc). And all of the decisions that the court cited for the “rule” that it stated “controls here”
expressly invoked the presumption of truthfulness. Dai Pet. App.
14a; see Hu, 652 F.3d at 1013 n.1 (holding that unless the Board
makes “an explicit adverse credibility finding, we assume that the
facts in [the alien’s testimony] are true”) (emphasis added); Kalubi,
364 F.3d at 1137 (“Testimony must be accepted as true in the absence of an explicit adverse credibility finding.”) (emphasis added);
Navas, 217 F.3d at 652 n.3 (Absent “an explicit adverse credibility
finding, we must assume that the applicant’s factual contentions are
true.”) (emphasis added). In any event, a presumption of credibility
does not provide a proper basis for setting aside the Board’s decision. See pp. 28-34, infra.

28
1229a(c)(4)(B). The mere absence of a finding that testimony is not credible, therefore, does not mean that the
testimony must be true.
Under Section 1252(b)(4), so long as the determination reached after weighing all the evidence of record is
one that a “reasonable adjudicator” could reach, the
court of appeals must defer to it. 8 U.S.C. 1252(b)(4). A
court of appeals is not free to disregard that statutorily
mandated deference based on its case-specific assessment that a particular alien’s testimony should have
been believed. A fortiori, neither is it free to do so based
on a judge-made categorical presumption that all aliens’ testimony should be believed unless the IJ or the
Board states explicitly on the record that the testimony
is not credible. Cf. Vermont Yankee Nuclear Power Corp.
v. Natural Resources Defense Council, Inc., 435 U.S. 519,
524 (1978).
D. Respondents’ Arguments That The Decisions Below
Properly Rest On A Presumption of Credibility Are
Wrong

Respondents make no effort to justify the presumption of truthfulness recited in the court of appeals’ decision in Alcaraz and in the earlier circuit precedents that
the court found controlling in Dai. Instead, they argue
that the INA requires courts of appeals to apply a presumption of credibility, and that this credibility presumption required the court of appeals to set aside the
Board’s decisions here. See Dai Br. in Opp. 21-26; Alcaraz Br. in Opp. 11-18. Respondents are wrong on
both points.
1. As an initial matter, the INA does not require
courts of appeals to presume that an alien’s testimony
is credible. That sort of rigid, “categorical rule” would

29
be in considerable tension with the “case-by-case” evaluation based on the whole record that substantialevidence review ordinarily entails. Biestek v. Berryhill,
139 S. Ct. 1148, 1157 (2019). And, indeed, in enacting
the REAL ID Act in 2005, Congress provided that ordinarily “[t]here is no presumption of credibility” in assessing an alien’s eligibility for asylum or entitlement to
withholding of removal. 8 U.S.C. 1158(b)(1)(B)(iii) (asylum); see 8 U.S.C. 1231(b)(3)(C) (making the same rule
applicable to evaluation of whether the alien has shown
a qualifying threat to “life or freedom” for purposes of
withholding of removal); 8 U.S.C. 1229a(c)(4)(C) (making the same rule applicable to all applications for relief
or protection from removal more generally).
Congress created just one exception to that general
rule: “[I]f no adverse credibility determination is
explicitly made, the applicant or witness shall have a
rebuttable presumption of credibility on appeal.”
8 U.S.C. 1158(b)(1)(B)(iii); see 8 U.S.C. 1229a(c)(4)(C),
1231(b)(3)(C). As the court of appeals recognized in Dai
and both respondents concede, however, “the rebuttable presumption provision of the REAL ID Act applies
only to appeals to the BIA, not to petitions for review in
[the courts of appeals].” Dai Pet. App. 14a.; see Alcaraz
Br. in Opp. 13 (acknowledging that “an ‘appeal’ from an
immigration court is to the BIA”) (citation omitted);
Dai Br. in Opp. 23 (acknowledging that “the court of appeals * * * hears immigration matters not on appeal
but on a ‘petition for review’ ”) (citing 28 U.S.C. 2344).
Because that exception applies only before the
Board, review in the courts of appeals is properly carried out under the INA’s general rule that “[t]here
is no presumption of credibility” accorded to aliens’
testimony. 8 U.S.C. 1158(b)(1)(B)(iii); see 8 U.S.C.

30
1229a(c)(4)(C), 1231(b)(3)(C). Rather than giving force
to that statutory rule, however, the court of appeals instead defaulted to pre-REAL ID Act circuit precedent.
See Dai Pet. App. 14a. It reasoned that because the
“rebuttable presumption provision” is inapplicable to a
court of appeals’ consideration of a petition for review,
the REAL ID Act therefore did not “repeal[]” the Ninth
Circuit’s pre-existing irrebuttable presumptions. Ibid.
That analysis was backwards: when the statutory exemption does not apply, it is the statutory rule that applies, not a different and contrary judge-made rule.
Respondents seek to defend the court of appeals’ result by arguing that while the exception applies on review before the Board, the general rule applies only to
IJs. See Dai Br. in Opp. 22-23; Alcaraz Br. in Opp. 1516. That argument makes little sense: if the general
rule applied only to IJs, there would have been no need
to create an exception to the rule for proceedings before
the Board. And where Congress intended credibilityrelated provisions of the relevant sections to apply specifically to IJs, it said so expressly. See, e.g., 8 U.S.C.
1229a(c)(4)(B) (“In determining whether the applicant
has met [the applicant’s] burden, the immigration
judge shall weigh the credible testimony along with
other evidence of record.”) (emphasis added); 8 U.S.C.
1229a(c)(4)(C) (“[T]he immigration judge may base a
credibility determination on” various factors.) (emphasis added); 8 U.S.C. 1158(b)(1)(B)(ii) (“In determining
whether the applicant has met the applicant’s burden,
the trier of fact may weigh the credible testimony along
with other evidence of record.”) (emphasis added);
8 U.S.C. 1158(b)(1)(B)(iii) (“[A] trier of fact may base a
credibility determination on [certain specified criteria].”) (emphasis added). That Congress included no

31
such limitation in the general rule barring use of a presumption of credibility indicates that it intended that
rule to apply more broadly. See, e.g., Russello v. United
States, 464 U.S. 16, 23 (1983) (“Where Congress includes particular language in one section of a statute
but omits it in another section of the same Act, it is generally presumed that Congress acts intentionally and
purposely in the disparate inclusion or exclusion.”)
(brackets and citation omitted).
2. In any event, even if a presumption that an alien’s
testimony is credible did apply in the courts of appeals,
that presumption would not empower a reviewing court
to set aside a decision in which both the IJ and the
Board have reasonably determined that other evidence
in the record outweighs the testimony supporting the
alien’s claims.
In ruling for respondents below, the court of appeals
treated all of the testimony respondents offered in support of their claims as necessarily true, and thus as sufficient to establish their claims. See p. 26, supra. It said
that expressly in Alcaraz, treating Alcaraz’s “factual
contentions a[s] true” and on that basis holding that the
IJ and Board had “erred when [they] credited the probation report over Alcaraz’s testimony.” Alcaraz Pet.
App. 2a-3a (citation omitted). The court’s language in
Dai was less direct, but the substance of its decision
there was the same: it held that the IJ and Board had
erred by relying on aspects of Dai’s testimony that undermined his claims of persecution and determining
that Dai had not carried his burden of proof on his
claims. See Dai Pet. App. 18a-24a. And the Court then
affirmatively declared Dai eligible for asylum and entitled to withholding of removal. Id. at 25a-26a. Those

32
legal determinations would only be possible based upon
a finding that Dai’s claims of persecution were true.
A presumption limited only to credibility, in contrast, could not support the result in either case. As
Judge Callahan explained in her dissent from denial of
rehearing en banc in Dai (Dai Pet. App. 136a-138a),
there is a material difference between the “credibility”
of an alien’s testimony and its underlying truthfulness
or ultimate persuasiveness. To be “credible,” as noted
above, is simply to be “[c]apable of being believed.”
American Heritage Dictionary 438. And the INA provides that, in order for an alien to carry his burden without corroboration, his testimony must be both “credible” and “persuasive.” 8 U.S.C. 1158(b)(1)(B)(ii); see
8 U.S.C. 1229a(c)(4)(B). That statutory text “contemplates that an alien’s testimony may be ‘credible’ yet not
‘persuasive,’ for otherwise the second determination
would be superfluous.” Doe v. Holder, 651 F.3d 824, 830
(8th Cir. 2011).
A factfinder accordingly can conclude that testimony
is facially “credible,” in the sense that it is capable of
being believed, but find that the testimony is not actually true or ultimately is not sufficiently persuasive to
establish essential elements of the alien’s burden of
proof in light of the record as a whole. That could readily occur, for example, when two credible witnesses testify to contradictory things and a factfinder is required
to decide which, if either, is telling the truth or what the
ultimate factual circumstances were or are. Dai Pet.
App. 136a-137a (Callahan, J., dissenting from denial of
rehearing en banc). Indeed, the presumption of credibility applicable before the Board potentially applies to
the testimony of any “applicant or witness” who testifies
in the removal proceedings, 8 U.S.C. 1158(b)(1)(B)(iii),

33
raising the possibility of two competing accounts that
are both presumed to be credible and yet cannot both
be believed.
Presuming that an alien’s testimony was credible,
therefore, does not establish that an IJ or the Board
lacked a “reasonable” basis for choosing not to believe
it, or for finding on the basis of all the evidence that the
testimony is not sufficiently persuasive to establish the
alien’s eligibility for relief. 8 U.S.C. 1252(b)(4). Thus,
even assuming Alcaraz’s testimony about the circumstances in which he struck his girlfriend was capable of
being believed, that would not mean that the IJ and the
Board were required to accept his testimony over the
probation report and other evidence that contradicted
it. See Alcaraz Pet. App. 7a-9a, 12a-15a. And even assuming Dai’s testimony that he was persecuted for attempting to prevent a forced abortion was capable of
being believed, that would not mean that the IJ and the
Board were required to accept that testimony as true in
the face of evidence related to his family’s return to
China that the IJ and Board concluded was inconsistent
with Dai’s claims. Dai Pet. App. 163a-164a, 175a-176a.
3. Properly distinguishing credibility from persuasiveness or truthfulness in this way does not render the
INA’s references to credibility “meaningless.” Alcaraz
Br. in Opp. 16.
Where an IJ accepts an alien’s testimony as sufficient to carry the alien’s burden of proof and therefore
rules in favor of the alien, the “rebuttable presumption
of credibility on appeal” to the Board helps to ensure
due respect for the IJ’s factual determination. 8 U.S.C.
1158(b)(1)(B)(iii); see 8 U.S.C. 1229a(c)(4)(C); see also
8 C.F.R. 1003.1(d)(3) (providing, as a regulatory matter,
that the Board will set aside an IJ’s findings of fact only

34
if they are “clearly erroneous”). Because of the finding
of credibility made or imputed to the IJ in that circumstance, the Board cannot “stand mute and arbitrarily
disbelieve [the] evidence.” Greenwich Collieries, 512 U.S.
at 279 (citation omitted). Instead, the “credible and
credited evidence must be accepted as true except as
the contrary has been shown or such evidence has been
rebutted or impeached by duly credited evidence or by
facts officially noticed and stated.” Ibid. (quoting H.R.
Rep. No. 1980, 79th Cong., 2d Sess. 36 (1946) (House
Report on Administrative Procedure Act)) (emphasis
added).
But such a presumption would have little, if any, effect in circumstances like the ones presented here,
where an IJ determines that testimony supporting an
alien’s claim is not persuasive (even if credible) and the
Board affirms. Contrary to Alcaraz’s arguments, a decision by a court of appeals declining to set aside the
shared determination by the IJ and the Board in that
scenario is not inconsistent with the asserted presumption because it is not “based on lack of credibility,” and
neither does it involve “ ‘deny[ing] a petition for review
on a ground [on which] the BIA itself did not base its
decision.’ ” Dai Pet. App. 16a (citation omitted; second
set of brackets in original); see Alcaraz Br. in Opp. 14
(citing SEC v. Chenery Corp., 332 U.S. 194, 196-197
(1947)). Instead, it simply reflects recognition that the
IJ and Board could reasonably determine that the testimony, even if capable of being believed, was ultimately
unpersuasive—and that Congress required the court of
appeals to defer to that reasonable determination. See
8 U.S.C. 1252(b)(4)(B). The court of appeals’ failure to
heed that statutory command requires reversal in both
cases.

35
II. THE COURT OF APPEALS COMPOUNDED ITS ERROR
IN DAI BY FAILING TO FOLLOW THE ORDINARY
REMAND RULE

The court of appeals compounded its error in Dai by
requiring the Board to treat Dai as eligible for asylum
and entitled to withholding of removal, rather than allowing the Board to address those issues again on remand. Dai Pet. App. 25a-26a. Even if the court had
been justified in setting aside the Board’s decision,
there was no justification for conclusively resolving
those issues in Dai’s favor rather than simply vacating
the Board’s decision and remanding. Indeed, this Court
has summarily reversed the court of appeals for making
that same error in the past, as several of the dissenting
Ninth Circuit judges noted. See Gonzales v. Thomas,
547 U.S. 183 (2006) (per curiam); Ventura, supra; Dai
Pet. App. 125a (Callahan, J., dissenting from denial of
rehearing en banc) (“We are asking yet again to be summarily reversed for violating the ‘ordinary remand
rule.’ ”) (quoting Thomas, 547 U.S. at 187); Dai Pet.
App. 108a-109a (Trott, J., dissenting) (similar).
A. This Court has explained that, “[w]ithin broad
limits[,] the law entrusts the agency to make the basic
asylum eligibility decision.” Ventura, 537 U.S. at 16.
Accordingly, when a court of appeals determines that
the findings of the IJ or the Board are insufficient to
support the denial of relief or protection, “the proper
course, except in rare circumstances, is to remand to the
agency for additional investigation or explanation.”
Ibid. (citation omitted). Doing so permits “[t]he agency
* * * [to] bring its expertise to bear upon the matter”
in light of any deficiencies identified by the court of appeals, including by reevaluating the existing record and
providing “informed discussion and analysis” under a

36
proper framework, id. at 17, and it allows for receipt of
additional evidence if appropriate, id. at 18. A court of
appeals that undertakes those tasks itself “seriously
disregard[s] the agency’s legally mandated role.” Id. at
17; see Thomas, 547 U.S. at 185-187 (similar).
B. The court of appeals demonstrated just such “serious[] disregard[]” here. Ventura, 537 U.S. at 17. Having concluded (erroneously) that the absence of an explicit adverse credibility finding allowed it to disregard
all of the evidence in the record supporting the IJ’s and
the Board’s decisions not to credit Dai’s testimony, the
court did not simply vacate the Board’s decision and remand to allow for further evaluation and, if appropriate,
additional evidence. Instead, the court deemed the testimony actually true and ultimately persuasive, and ordered relief accordingly—conclusively determining that
Dai had carried his burden of proving eligibility for asylum and entitlement to withholding of removal. Dai
Pet. App. 24a-26a.
In doing so, the court of appeals deprived the IJ and
the Board of the opportunity, on remand, to reassess or
expand the record and, if they so determine, state more
explicitly that they find Dai’s testimony not credible or
that his failure to testify in a “truthful” fashion rendered his testimony insufficiently credible to carry his
burden in light of all the circumstances and evidence in
the record. Dai Pet. App. 164a. The fact that the IJ
and the Board found that the discrepancies in Dai’s testimony were enough to deny him relief without the need
for an explicit adverse credibility determination does
not suggest that no adverse credibility determination
would be warranted. Accordingly, even if greater clarity from the IJ or the Board were required—and for the
reasons discussed above, it was not, see pp. 20-34,

37
supra—the court of appeals should have given them the
opportunity to provide that clarity, rather than finally
resolving the issues itself.
Beyond displacing the agency’s role in assessing
what evidence is credible, moreover, the court of appeals also improperly chose to draw its own inferences
from the evidence it deemed credible, rather than allowing the agency to determine what inferences to draw in
the first instance. The court decided, for example, that
Dai’s wife and daughter had “entirely reasonable” motives for returning to China; that Dai’s untruthfulness
about his family’s travel did not mean that Dai was concerned about what that travel might suggest about the
genuineness and persuasiveness of his claims of persecution; and that Dai’s work-related reasons for remaining in the United States were merely in addition to his
asserted persecution-related reasons for remaining.
Dai Pet. App. 22a-24a. As this Court explained in Ventura, however, a court may not conduct a “de novo inquiry” into the factual record and “reach its own conclusions based on [that] inquiry.” 537 U.S. at 16 (citation
omitted). Because the IJ and the Board could have
drawn different inferences from the evidence even accepting that evidence as credible, the court should have
given them an opportunity to do so in light of its decision.
Finally, the court of appeals failed to afford the
Board an opportunity to decide whether remand to the
IJ would be appropriate to address, or to take new evidence on, the effect of any changes in country conditions
that occurred during the more than four years that
Dai’s case was pending before the court. See 15-70776
Docket entry No. (Docket entry No.) 1 (Mar. 12, 2015);

38
Docket entry No. 51 (Oct. 30, 2019); see also Docket entry No. 11 (Nov. 9, 2015) (Government Response Brief ).
For example, there is strong evidence that while the
case was pending in the court of appeals, China changed
its national policy to permit married couples to have two
children. Bureau of Democracy, Human Rights & Labor, U.S. Dep’t of State, Country Report on Human
Rights Practices for 2016: China 54, https://www.
justice.gov/sites/default/files/pages/attachments/2017/03/
06/dos-hrr_2016_china.pdf (“On January 1, [2016,] the
government raised the birth limit imposed on its citizens from one to two children per married couple,
thereby ending the ‘one-child policy’ first enacted in
1979.”). Yet the court’s decision precludes the Board
from considering whether remand to the IJ would be
appropriate to address, or take new evidence on,
changes in China’s family-planning policies that might
be relevant to Dai’s claim.
The court of appeals’ errors in this regard are not
new. This Court has twice summarily reversed decisions of the Ninth Circuit that purported to conclusively
hold an alien eligible for asylum in just the same fashion. See Thomas, 547 U.S. at 187; Ventura, 537 U.S. at
16-18. As Judge Trott put it in dissent, “the majority
opinion follows in [that] tradition,” “seizing authority
that does not belong to us.” Dai Pet. App. 108a-109a.
If the Court reaches this issue at all, it should reverse the aspect of the court of appeals’ decision declaring Dai eligible for asylum and entitled to withholding
of removal, see Dai Pet. App. 24a-26a, and order the
Ninth Circuit to allow the Board to consider those issues anew on remand.

39
CONCLUSION

The judgments of the court of appeals should be
reversed.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys

NOVEMBER 2020

APPENDIX

1.

8 U.S.C. 1158 provides:

Asylum
(a)

Authority to apply for asylum
(1) In general

Any alien who is physically present in the United
States or who arrives in the United States (whether
or not at a designated port of arrival and including an
alien who is brought to the United States after having
been interdicted in international or United States
waters), irrespective of such alien’s status, may apply
for asylum in accordance with this section or, where
applicable, section 1225(b) of this title.
(2) Exceptions
(A)

Safe third country

Paragraph (1) shall not apply to an alien if the
Attorney General determines that the alien may
be removed, pursuant to a bilateral or multilateral
agreement, to a country (other than the country of
the alien’s nationality or, in the case of an alien
having no nationality, the country of the alien’s
last habitual residence) in which the alien’s life or
freedom would not be threatened on account of
race, religion, nationality, membership in a particular social group, or political opinion, and where
the alien would have access to a full and fair procedure for determining a claim to asylum or equivalent temporary protection, unless the Attorney
General finds that it is in the public interest for
the alien to receive asylum in the United States.
(1a)

2a
(B)

Time limit

Subject to subparagraph (D), paragraph (1)
shall not apply to an alien unless the alien demonstrates by clear and convincing evidence that the
application has been filed within 1 year after the
date of the alien’s arrival in the United States.
(C)

Previous asylum applications

Subject to subparagraph (D), paragraph (1)
shall not apply to an alien if the alien has previously applied for asylum and had such application
denied.
(D)

Changed circumstances

An application for asylum of an alien may be
considered, notwithstanding subparagraphs (B)
and (C), if the alien demonstrates to the satisfaction of the Attorney General either the existence
of changed circumstances which materially affect
the applicant’s eligibility for asylum or extraordinary circumstances relating to the delay in filing
an application within the period specified in subparagraph (B).
(E)

Applicability

Subparagraphs (A) and (B) shall not apply to
an unaccompanied alien child (as defined in section 279(g) of title 6).
(3) Limitation on judicial review

No court shall have jurisdiction to review any determination of the Attorney General under paragraph (2).

3a
(b)

Conditions for granting asylum
(1) In general
(A)

Eligibility

The Secretary of Homeland Security or the Attorney General may grant asylum to an alien who
has applied for asylum in accordance with the requirements and procedures established by the
Secretary of Homeland Security or the Attorney
General under this section if the Secretary of
Homeland Security or the Attorney General determines that such alien is a refugee within the
meaning of section 1101(a)(42)(A) of this title.
(B)

Burden of proof

(i)

In general

The burden of proof is on the applicant to
establish that the applicant is a refugee, within
the meaning of section 1101(a)(42)(A) of this title. To establish that the applicant is a refugee within the meaning of such section, the applicant must establish that race, religion, nationality, membership in a particular social group,
or political opinion was or will be at least one
central reason for persecuting the applicant.
(ii)

Sustaining burden

The testimony of the applicant may be sufficient to sustain the applicant’s burden without
corroboration, but only if the applicant satisfies
the trier of fact that the applicant’s testimony
is credible, is persuasive, and refers to specific
facts sufficient to demonstrate that the applicant is a refugee. In determining whether the

4a
applicant has met the applicant’s burden, the
trier of fact may weigh the credible testimony
along with other evidence of record. Where
the trier of fact determines that the applicant
should provide evidence that corroborates otherwise credible testimony, such evidence must
be provided unless the applicant does not have
the evidence and cannot reasonably obtain the
evidence.
(iii) Credibility determination

Considering the totality of the circumstances,
and all relevant factors, a trier of fact may base
a credibility determination on the demeanor,
candor, or responsiveness of the applicant or
witness, the inherent plausibility of the applicant’s or witness’s account, the consistency between the applicant’s or witness’s written and
oral statements (whenever made and whether
or not under oath, and considering the circumstances under which the statements were made),
the internal consistency of each such statement,
the consistency of such statements with other
evidence of record (including the reports of the
Department of State on country conditions),
and any inaccuracies or falsehoods in such statements, without regard to whether an inconsistency, inaccuracy, or falsehood goes to the
heart of the applicant’s claim, or any other relevant factor.
There is no presumption of
credibility, however, if no adverse credibility
determination is explicitly made, the applicant
or witness shall have a rebuttable presumption
of credibility on appeal.

5a
(2) Exceptions
(A)

In general

Paragraph (1) shall not apply to an alien if the
Attorney General determines that—
(i) the alien ordered, incited, assisted, or
otherwise participated in the persecution of
any person on account of race, religion, nationality, membership in a particular social group,
or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime,
constitutes a danger to the community of the
United States;
(iii) there are serious reasons for believing
that the alien has committed a serious nonpolitical crime outside the United States prior to
the arrival of the alien in the United States;
(iv) there are reasonable grounds for regarding the alien as a danger to the security of
the United States;
(v) the alien is described in subclause (I),
(II), (III), (IV), or (VI) of section 1182(a)(3)(B)(i)
of this title or section 1227(a)(4)(B) of this title
(relating to terrorist activity), unless, in the
case only of an alien described in subclause (IV)
of section 1182(a)(3)(B)(i) of this title, the Attorney General determines, in the Attorney
General’s discretion, that there are not reasonable grounds for regarding the alien as a danger to the security of the United States; or

6a
(vi) the alien was firmly resettled in another country prior to arriving in the United
States.
(B)

Special rules

(i)

Conviction of aggravated felony

For purposes of clause (ii) of subparagraph
(A), an alien who has been convicted of an aggravated felony shall be considered to have
been convicted of a particularly serious crime.
(ii)

Offenses

The Attorney General may designate by
regulation offenses that will be considered to
be a crime described in clause (ii) or (iii) of subparagraph (A).
(C)

Additional limitations

The Attorney General may by regulation establish additional limitations and conditions, consistent with this section, under which an alien shall
be ineligible for asylum under paragraph (1).
(D)

No judicial review

There shall be no judicial review of a determination of the Attorney General under subparagraph (A)(v).
(3) Treatment of spouse and children
(A)

In general

A spouse or child (as defined in section
1101(b)(1)(A), (B), (C), (D), or (E) of this title) of
an alien who is granted asylum under this subsec-

7a
tion may, if not otherwise eligible for asylum under this section, be granted the same status as the
alien if accompanying, or following to join, such alien.
(B)

Continued classification of certain aliens as
children

An unmarried alien who seeks to accompany, or
follow to join, a parent granted asylum under this
subsection, and who was under 21 years of age on
the date on which such parent applied for asylum
under this section, shall continue to be classified
as a child for purposes of this paragraph and section 1159(b)(3) of this title, if the alien attained 21
years of age after such application was filed but
while it was pending.
(C)

Initial jurisdiction

An asylum officer (as defined in section
1225(b)(1)(E) of this title) shall have initial jurisdiction over any asylum application filed by an unaccompanied alien child (as defined in section
279(g) of title 6), regardless of whether filed in accordance with this section or section 1225(b) of
this title.
(c)

Asylum status
(1) In general

In the case of an alien granted asylum under subsection (b), the Attorney General—
(A) shall not remove or return the alien to the
alien’s country of nationality or, in the case of a
person having no nationality, the country of the alien’s last habitual residence;

8a
(B) shall authorize the alien to engage in employment in the United States and provide the alien with appropriate endorsement of that authorization; and
(C) may allow the alien to travel abroad with
the prior consent of the Attorney General.
(2) Termination of asylum

Asylum granted under subsection (b) does not
convey a right to remain permanently in the United
States, and may be terminated if the Attorney General determines that—
(A) the alien no longer meets the conditions
described in subsection (b)(1) of this section owing
to a fundamental change in circumstances;
(B) the alien meets a condition described in
subsection (b)(2) of this section;
(C) the alien may be removed, pursuant to a
bilateral or multilateral agreement, to a country
(other than the country of the alien’s nationality
or, in the case of an alien having no nationality, the
country of the alien’s last habitual residence) in
which the alien’s life or freedom would not be
threatened on account of race, religion, nationality, membership in a particular social group, or political opinion, and where the alien is eligible to receive asylum or equivalent temporary protection;
(D) the alien has voluntarily availed himself
or herself of the protection of the alien’s country
of nationality or, in the case of an alien having no
nationality, the alien’s country of last habitual res-

9a
idence, by returning to such country with permanent resident status or the reasonable possibility
of obtaining such status with the same rights and
obligations pertaining to other permanent residents of that country; or
(E) the alien has acquired a new nationality
and enjoys the protection of the country of his or
her new nationality.
(3) Removal when asylum is terminated

An alien described in paragraph (2) is subject to
any applicable grounds of inadmissibility or deportability under section 1 1182(a) and 1227(a) of this title,
and the alien’s removal or return shall be directed by
the Attorney General in accordance with sections
1229a and 1231 of this title.
(d)

Asylum procedure
(1) Applications

The Attorney General shall establish a procedure
for the consideration of asylum applications filed under subsection (a) of this section. The Attorney
General may require applicants to submit fingerprints and a photograph at such time and in such
manner to be determined by regulation by the Attorney General.
(2) Employment

An applicant for asylum is not entitled to employment authorization, but such authorization may be
provided under regulation by the Attorney General.

1

So in original.

Probably should be “sections”.

10a
An applicant who is not otherwise eligible for employment authorization shall not be granted such authorization prior to 180 days after the date of filing of the
application for asylum.
(3) Fees

The Attorney General may impose fees for the
consideration of an application for asylum, for employment authorization under this section, and for
adjustment of status under section 1159(b) of this title. Such fees shall not exceed the Attorney General’s costs in adjudicating the applications. The
Attorney General may provide for the assessment
and payment of such fees over a period of time or by
installments. Nothing in this paragraph shall be
construed to require the Attorney General to charge
fees for adjudication services provided to asylum applicants, or to limit the authority of the Attorney
General to set adjudication and naturalization fees in
accordance with section 1356(m) of this title.
(4) Notice of privilege of counsel and consequences of
frivolous application

At the time of filing an application for asylum, the
Attorney General shall—
(A) advise the alien of the privilege of being
represented by counsel and of the consequences,
under paragraph (6), of knowingly filing a frivolous application for asylum; and
(B) provide the alien a list of persons (updated not less often than quarterly) who have indicated their availability to represent aliens in
asylum proceedings on a pro bono basis.

11a
(5) Consideration of asylum applications
(A)

Procedures

The procedure established under paragraph (1)
shall provide that—
(i) asylum cannot be granted until the identity of the applicant has been checked against all
appropriate records or databases maintained
by the Attorney General and by the Secretary
of State, including the Automated Visa Lookout
System, to determine any grounds on which the
alien may be inadmissible to or deportable from
the United States, or ineligible to apply for or
be granted asylum;
(ii) in the absence of exceptional circumstances, the initial interview or hearing on the
asylum application shall commence not later
than 45 days after the date an application is
filed;
(iii) in the absence of exceptional circumstances, final administrative adjudication of the
asylum application, not including administrative appeal, shall be completed within 180 days
after the date an application is filed;
(iv) any administrative appeal shall be filed
within 30 days of a decision granting or denying
asylum, or within 30 days of the completion of
removal proceedings before an immigration
judge under section 1229a of this title, whichever is later; and
(v) in the case of an applicant for asylum
who fails without prior authorization or in the

12a
absence of exceptional circumstances to appear
for an interview or hearing, including a hearing
under section 1229a of this title, the application
may be dismissed or the applicant may be otherwise sanctioned for such failure.
(B)

Additional regulatory conditions

The Attorney General may provide by regulation for any other conditions or limitations on the
consideration of an application for asylum not inconsistent with this chapter.
(6) Frivolous applications

If the Attorney General determines that an alien
has knowingly made a frivolous application for asylum and the alien has received the notice under paragraph (4)(A), the alien shall be permanently ineligible for any benefits under this chapter, effective as of
the date of a final determination on such application.
(7) No private right of action

Nothing in this subsection shall be construed to
create any substantive or procedural right or benefit
that is legally enforceable by any party against the
United States or its agencies or officers or any other
person.
(e)

Commonwealth of the Northern Mariana Islands

The provisions of this section and section 1159(b) of
this title shall apply to persons physically present in the
Commonwealth of the Northern Mariana Islands or arriving in the Commonwealth (whether or not at a designated port of arrival and including persons who are

13a
brought to the Commonwealth after having been interdicted in international or United States waters) only on
or after January 1, 2014.
2.

8 U.S.C. 1229a provides:

Removal proceedings
(a)

Proceeding
(1) In general

An immigration judge shall conduct proceedings
for deciding the inadmissibility or deportability of an
alien.
(2) Charges

An alien placed in proceedings under this section
may be charged with any applicable ground of inadmissibility under section 1182(a) of this title or any
applicable ground of deportability under section
1227(a) of this title.
(3) Exclusive procedures

Unless otherwise specified in this chapter, a proceeding under this section shall be the sole and exclusive procedure for determining whether an alien may
be admitted to the United States or, if the alien has
been so admitted, removed from the United States.
Nothing in this section shall affect proceedings conducted pursuant to section 1228 of this title.

14a
(b)

Conduct of proceeding
(1) Authority of immigration judge

The immigration judge shall administer oaths, receive evidence, and interrogate, examine, and crossexamine the alien and any witnesses. The immigration judge may issue subpoenas for the attendance of
witnesses and presentation of evidence. The immigration judge shall have authority (under regulations
prescribed by the Attorney General) to sanction by
civil money penalty any action (or inaction) in contempt of the judge’s proper exercise of authority under this chapter.
(2) Form of proceeding
(A)

In general

The proceeding may take place—
(i)

in person,

(ii) where agreed to by the parties, in the
absence of the alien,
(iii) through video conference, or
(iv) subject to subparagraph (B), through
telephone conference.
(B)

Consent required in certain cases

An evidentiary hearing on the merits may only
be conducted through a telephone conference with
the consent of the alien involved after the alien has
been advised of the right to proceed in person or
through video conference.

15a
(3) Presence of alien

If it is impracticable by reason of an alien’s mental
incompetency for the alien to be present at the proceeding, the Attorney General shall prescribe safeguards to protect the rights and privileges of the alien.
(4) Alien’s rights in proceeding

In proceedings under this section, under regulations of the Attorney General—
(A) the alien shall have the privilege of being
represented, at no expense to the Government, by
counsel of the alien’s choosing who is authorized
to practice in such proceedings,
(B) the alien shall have a reasonable opportunity to examine the evidence against the alien,
to present evidence on the alien’s own behalf, and
to cross-examine witnesses presented by the Government but these rights shall not entitle the alien
to examine such national security information as
the Government may proffer in opposition to the
alien’s admission to the United States or to an application by the alien for discretionary relief under
this chapter, and
(C) a complete record shall be kept of all testimony and evidence produced at the proceeding.
(5) Consequences of failure to appear
(A)

In general

Any alien who, after written notice required under paragraph (1) or (2) of section 1229(a) of this title has been provided to the alien or the alien’s

16a
counsel of record, does not attend a proceeding
under this section, shall be ordered removed in absentia if the Service establishes by clear, unequivocal, and convincing evidence that the written notice was so provided and that the alien is removable (as defined in subsection (e)(2)). The written
notice by the Attorney General shall be considered sufficient for purposes of this subparagraph
if provided at the most recent address provided
under section 1229(a)(1)(F) of this title.
(B)

No notice if failure to provide address information

No written notice shall be required under subparagraph (A) if the alien has failed to provide the
address required under section 1229(a)(1)(F) of
this title.
(C)

Rescission of order

Such an order may be rescinded only—
(i) upon a motion to reopen filed within
180 days after the date of the order of removal
if the alien demonstrates that the failure to appear was because of exceptional circumstances
(as defined in subsection (e)(1)), or
(ii) upon a motion to reopen filed at any
time if the alien demonstrates that the alien did
not receive notice in accordance with paragraph (1) or (2) of section 1229(a) of this title or
the alien demonstrates that the alien was in
Federal or State custody and the failure to appear was through no fault of the alien.

17a
The filing of the motion to reopen described in
clause (i) or (ii) shall stay the removal of the alien
pending disposition of the motion by the immigration judge.
(D)

Effect on judicial review

Any petition for review under section 1252 of
this title of an order entered in absentia under this
paragraph shall (except in cases described in section 1252(b)(5) of this title) be confined to (i) the
validity of the notice provided to the alien, (ii) the
reasons for the alien’s not attending the proceeding, and (iii) whether or not the alien is removable.
(E)

Additional application to certain aliens in
contiguous territory

The preceding provisions of this paragraph
shall apply to all aliens placed in proceedings under this section, including any alien who remains
in a contiguous foreign territory pursuant to section 1225(b)(2)(C) of this title.
(6) Treatment of frivolous behavior

The Attorney General shall, by regulation—
(A) define in a proceeding before an immigration judge or before an appellate administrative body under this subchapter, frivolous behavior for which attorneys may be sanctioned,
(B) specify the circumstances under which an
administrative appeal of a decision or ruling will
be considered frivolous and will be summarily dismissed, and

18a
(C) impose appropriate sanctions (which may
include suspension and disbarment) in the case of
frivolous behavior.
Nothing in this paragraph shall be construed as limiting the authority of the Attorney General to take
actions with respect to inappropriate behavior.
(7) Limitation on discretionary relief for failure to
appear

Any alien against whom a final order of removal is
entered in absentia under this subsection and who, at
the time of the notice described in paragraph (1) or
(2) of section 1229(a) of this title, was provided oral
notice, either in the alien’s native language or in another language the alien understands, of the time and
place of the proceedings and of the consequences under this paragraph of failing, other than because of
exceptional circumstances (as defined in subsection
(e)(1) of this section) to attend a proceeding under
this section, shall not be eligible for relief under section 1229b, 1229c, 1255, 1258, or 1259 of this title for
a period of 10 years after the date of the entry of the
final order of removal.
(c)

Decision and burden of proof
(1) Decision
(A)

In general

At the conclusion of the proceeding the immigration judge shall decide whether an alien is removable from the United States. The determination of the immigration judge shall be based
only on the evidence produced at the hearing.

19a
(B)

Certain medical decisions

If a medical officer or civil surgeon or board of
medical officers has certified under section 1222(b)
of this title that an alien has a disease, illness, or
addiction which would make the alien inadmissible
under paragraph (1) of section 1182(a) of this title,
the decision of the immigration judge shall be
based solely upon such certification.
(2) Burden on alien

In the proceeding the alien has the burden of
establishing—
(A) if the alien is an applicant for admission,
that the alien is clearly and beyond doubt entitled
to be admitted and is not inadmissible under section 1182 of this title; or
(B) by clear and convincing evidence, that
the alien is lawfully present in the United States
pursuant to a prior admission.
In meeting the burden of proof under subparagraph
(B), the alien shall have access to the alien’s visa or
other entry document, if any, and any other records
and documents, not considered by the Attorney General to be confidential, pertaining to the alien’s admission or presence in the United States.
(3) Burden on service in cases of deportable aliens
(A)

In general

In the proceeding the Service has the burden
of establishing by clear and convincing evidence
that, in the case of an alien who has been admitted
to the United States, the alien is deportable. No

20a
decision on deportability shall be valid unless it is
based upon reasonable, substantial, and probative
evidence.
(B)

Proof of convictions

In any proceeding under this chapter, any of
the following documents or records (or a certified
copy of such an official document or record) shall
constitute proof of a criminal conviction:
(i) An official record of judgment and conviction.
(ii) An official record of plea, verdict, and
sentence.
(iii) A docket entry from court records that
indicates the existence of the conviction.
(iv) Official minutes of a court proceeding
or a transcript of a court hearing in which the
court takes notice of the existence of the conviction.
(v) An abstract of a record of conviction
prepared by the court in which the conviction
was entered, or by a State official associated
with the State’s repository of criminal justice
records, that indicates the charge or section of
law violated, the disposition of the case, the existence and date of conviction, and the sentence.
(vi) Any document or record prepared by,
or under the direction of, the court in which the
conviction was entered that indicates the existence of a conviction.

21a
(vii) Any document or record attesting to
the conviction that is maintained by an official
of a State or Federal penal institution, which is
the basis for that institution’s authority to assume custody of the individual named in the
record.
(C)

Electronic records

In any proceeding under this chapter, any record of conviction or abstract that has been submitted by electronic means to the Service from a
State or court shall be admissible as evidence to
prove a criminal conviction if it is—
(i) certified by a State official associated
with the State’s repository of criminal justice
records as an official record from its repository
or by a court official from the court in which the
conviction was entered as an official record
from its repository, and
(ii) certified in writing by a Service official
as having been received electronically from the
State’s record repository or the court’s record
repository.
A certification under clause (i) may be by means
of a computer-generated signature and statement
of authenticity.
(4) Applications for relief from removal
(A)

In general

An alien applying for relief or protection from
removal has the burden of proof to establish that
the alien—

22a
(i) satisfies the applicable eligibility requirements; and
(ii) with respect to any form of relief that
is granted in the exercise of discretion, that the
alien merits a favorable exercise of discretion.
(B)

Sustaining burden

The applicant must comply with the applicable
requirements to submit information or documentation in support of the applicant’s application for
relief or protection as provided by law or by regulation or in the instructions for the application
form. In evaluating the testimony of the applicant or other witness in support of the application,
the immigration judge will determine whether or
not the testimony is credible, is persuasive, and
refers to specific facts sufficient to demonstrate
that the applicant has satisfied the applicant’s
burden of proof. In determining whether the applicant has met such burden, the immigration
judge shall weigh the credible testimony along
with other evidence of record. Where the immigration judge determines that the applicant should
provide evidence which corroborates otherwise
credible testimony, such evidence must be provided unless the applicant demonstrates that the
applicant does not have the evidence and cannot
reasonably obtain the evidence.
(C)

Credibility determination

Considering the totality of the circumstances,
and all relevant factors, the immigration judge may
base a credibility determination on the demeanor,

23a
candor, or responsiveness of the applicant or witness, the inherent plausibility of the applicant’s or
witness’s account, the consistency between the applicant’s or witness’s written and oral statements
(whenever made and whether or not under oath,
and considering the circumstances under which the
statements were made), the internal consistency of
each such statement, the consistency of such
statements with other evidence of record (including the reports of the Department of State on country conditions), and any inaccuracies or falsehoods
in such statements, without regard to whether an
inconsistency, inaccuracy, or falsehood goes to the
heart of the applicant’s claim, or any other relevant factor. There is no presumption of credibility, however, if no adverse credibility determination is explicitly made, the applicant or witness
shall have a rebuttable presumption of credibility
on appeal.
(5) Notice

If the immigration judge decides that the alien is
removable and orders the alien to be removed, the
judge shall inform the alien of the right to appeal that
decision and of the consequences for failure to depart
under the order of removal, including civil and criminal penalties.
(6) Motions to reconsider
(A)

In general

The alien may file one motion to reconsider a decision that the alien is removable from the United
States.

24a
(B)

Deadline

The motion must be filed within 30 days of the
date of entry of a final administrative order of removal.
(C)

Contents

The motion shall specify the errors of law or
fact in the previous order and shall be supported
by pertinent authority.
(7) Motions to reopen
(A)

In general

An alien may file one motion to reopen proceedings under this section, except that this limitation
shall not apply so as to prevent the filing of one motion to reopen described in subparagraph (C)(iv).
(B)

Contents

The motion to reopen shall state the new facts
that will be proven at a hearing to be held if the
motion is granted, and shall be supported by affidavits or other evidentiary material.
(C)
(i)

Deadline
In general

Except as provided in this subparagraph,
the motion to reopen shall be filed within 90
days of the date of entry of a final administrative order of removal.
(ii) Asylum

There is no time limit on the filing of a motion to reopen if the basis of the motion is to

25a
apply for relief under sections1 1158 or 1231(b)(3)
of this title and is based on changed country
conditions arising in the country of nationality
or the country to which removal has been ordered, if such evidence is material and was not
available and would not have been discovered
or presented at the previous proceeding.
(iii) Failure to appear

The filing of a motion to reopen an order entered pursuant to subsection (b)(5) of this section is subject to the deadline specified in subparagraph (C) of such subsection.
(iv) Special rule for battered spouses, children,
and parents

Any limitation under this section on the deadlines for filing such motions shall not apply—
(I)
if the basis for the motion is to apply for relief under clause (iii) or (iv) of section 1154(a)(1)(A) of this title, clause (ii) or
(iii) of section 1154(a)(1)(B) of this title,,1 section 1229b(b) of this title, or section 1254(a)(3)
of this title (as in effect on March 31, 1997);
(II) if the motion is accompanied by a
cancellation of removal application to be filed
with the Attorney General or by a copy of the
self-petition that has been or will be filed with
the Immigration and Naturalization Service
upon the granting of the motion to reopen;

1

So in original.

26a
(III) if the motion to reopen is filed
within 1 year of the entry of the final order
of removal, except that the Attorney General may, in the Attorney General’s discretion, waive this time limitation in the case of
an alien who demonstrates extraordinary
circumstances or extreme hardship to the
alien’s child; and
(IV) if the alien is physically present in
the United States at the time of filing the
motion.
The filing of a motion to reopen under this
clause shall only stay the removal of a qualified
alien (as defined in section 1641(c)(1)(B) of this
title2 pending the final disposition of the motion, including exhaustion of all appeals if the
motion establishes that the alien is a qualified
alien.
(d)

Stipulated removal

The Attorney General shall provide by regulation for
the entry by an immigration judge of an order of removal stipulated to by the alien (or the alien’s representative) and the Service. A stipulated order shall
constitute a conclusive determination of the alien’s removability from the United States.
(e)

Definitions

In this section and section 1229b of this title:

2

So in original.

A closing parenthesis probably should appear.

27a
(1)

Exceptional circumstances

The term “exceptional circumstances” refers to exceptional circumstances (such as battery or extreme
cruelty to the alien or any child or parent of the alien,
serious illness of the alien, or serious illness or death
of the spouse, child, or parent of the alien, but not including less compelling circumstances) beyond the
control of the alien.
(2)

Removable

The term “removable” means—
(A) in the case of an alien not admitted to the
United States, that the alien is inadmissible under
section 1182 of this title, or
(B) in the case of an alien admitted to the
United States, that the alien is deportable under
section 1227 of this title.
3.

8 U.S.C. 1231 provide:

Detention and removal of aliens ordered removed
(a)

Detention, release, and removal of aliens ordered removed
(1) Removal period
(A)

In general

Except as otherwise provided in this section,
when an alien is ordered removed, the Attorney
General shall remove the alien from the United
States within a period of 90 days (in this section
referred to as the “removal period”).

28a
(B)

Beginning of period

The removal period begins on the latest of the
following:
(i) The date the order of removal becomes
administratively final.
(ii) If the removal order is judicially reviewed and if a court orders a stay of the removal of the alien, the date of the court’s final
order.
(iii) If the alien is detained or confined (except under an immigration process), the date
the alien is released from detention or confinement.
(C)

Suspension of period

The removal period shall be extended beyond a
period of 90 days and the alien may remain in detention during such extended period if the alien
fails or refuses to make timely application in good
faith for travel or other documents necessary to
the alien’s departure or conspires or acts to prevent the alien’s removal subject to an order of removal.
(2) Detention

During the removal period, the Attorney General
shall detain the alien. Under no circumstance during the removal period shall the Attorney General release an alien who has been found inadmissible under
section 1182(a)(2) or 1182(a)(3)(B) of this title or deportable under section 1227(a)(2) or 1227(a)(4)(B) of
this title.

29a
(3) Supervision after 90-day period

If the alien does not leave or is not removed within
the removal period, the alien, pending removal, shall
be subject to supervision under regulations prescribed by the Attorney General. The regulations
shall include provisions requiring the alien—
(A) to appear before an immigration officer
periodically for identification;
(B) to submit, if necessary, to a medical and
psychiatric examination at the expense of the
United States Government;
(C) to give information under oath about the
alien’s nationality, circumstances, habits, associations, and activities, and other information the Attorney General considers appropriate; and
(D) to obey reasonable written restrictions
on the alien’s conduct or activities that the Attorney General prescribes for the alien.
(4) Aliens imprisoned, arrested, or on parole, supervised release, or probation
(A)

In general

Except as provided in section 259(a)1 of title 42
and paragraph (2),2 the Attorney General may not
remove an alien who is sentenced to imprisonment
until the alien is released from imprisonment.

1
2

See References in Text note below.
So in original. Probably should be “subparagraph (B).”.

30a
Parole, supervised release, probation, or possibility of arrest or further imprisonment is not a reason to defer removal.
(B)

Exception for removal of nonviolent offenders prior to completion of sentence of imprisonment

The Attorney General is authorized to remove
an alien in accordance with applicable procedures
under this chapter before the alien has completed
a sentence of imprisonment—
(i) in the case of an alien in the custody of
the Attorney General, if the Attorney General
determines that (I) the alien is confined pursuant to a final conviction for a nonviolent offense
(other than an offense related to smuggling or
harboring of aliens or an offense described in
section 1101(a)(43)(B), (C), (E), (I), or (L) of
this title3 and (II) the removal of the alien is appropriate and in the best interest of the United
States; or
(ii) in the case of an alien in the custody of
a State (or a political subdivision of a State), if
the chief State official exercising authority
with respect to the incarceration of the alien
determines that (I) the alien is confined pursuant to a final conviction for a nonviolent offense
(other than an offense described in section
1101(a)(43)(C) or (E) of this title), (II) the removal is appropriate and in the best interest of
the State, and (III) submits a written request
So in original.
thesis.
3

Probably should be followed by a closing paren-

31a
to the Attorney General that such alien be so
removed.
(C)

Notice

Any alien removed pursuant to this paragraph
shall be notified of the penalties under the laws of
the United States relating to the reentry of deported aliens, particularly the expanded penalties
for aliens removed under subparagraph (B).
(D)

No private right

No cause or claim may be asserted under this
paragraph against any official of the United States
or of any State to compel the release, removal, or
consideration for release or removal of any alien.
(5) Reinstatement of removal orders against aliens
illegally reentering

If the Attorney General finds that an alien has
reentered the United States illegally after having been
removed or having departed voluntarily, under an order of removal, the prior order of removal is reinstated from its original date and is not subject to being reopened or reviewed, the alien is not eligible and
may not apply for any relief under this chapter, and
the alien shall be removed under the prior order at
any time after the reentry.
(6) Inadmissible or criminal aliens

An alien ordered removed who is inadmissible under section 1182 of this title, removable under section
1227(a)(1)(C), 1227(a)(2), or 1227(a)(4) of this title or
who has been determined by the Attorney General to
be a risk to the community or unlikely to comply with

32a
the order of removal, may be detained beyond the removal period and, if released, shall be subject to the
terms of supervision in paragraph (3).
(7) Employment authorization

No alien ordered removed shall be eligible to receive authorization to be employed in the United
States unless the Attorney General makes a specific
finding that—
(A) the alien cannot be removed due to the refusal of all countries designated by the alien or under
this section to receive the alien, or
(B) the removal of the alien is otherwise impracticable or contrary to the public interest.
(b)

Countries to which aliens may be removed
(1) Aliens arriving at the United States

Subject to paragraph (3)—
(A)

In general

Except as provided by subparagraphs (B) and
(C), an alien who arrives at the United States and
with respect to whom proceedings under section
1229a of this title were initiated at the time of such
alien’s arrival shall be removed to the country in
which the alien boarded the vessel or aircraft on
which the alien arrived in the United States.
(B)

Travel from contiguous territory

If the alien boarded the vessel or aircraft on
which the alien arrived in the United States in a
foreign territory contiguous to the United States,

33a
an island adjacent to the United States, or an island adjacent to a foreign territory contiguous to
the United States, and the alien is not a native, citizen, subject, or national of, or does not reside in,
the territory or island, removal shall be to the
country in which the alien boarded the vessel that
transported the alien to the territory or island.
(C)

Alternative countries

If the government of the country designated in
subparagraph (A) or (B) is unwilling to accept the
alien into that country’s territory, removal shall
be to any of the following countries, as directed by
the Attorney General:
(i) The country of which the alien is a citizen, subject, or national.
(ii) The country in which the alien was
born.
(iii) The country in which the alien has a
residence.
(iv) A country with a government that will
accept the alien into the country’s territory if
removal to each country described in a previous
clause of this subparagraph is impracticable,
inadvisable, or impossible.
(2) Other aliens

Subject to paragraph (3)—
(A)

Selection of country by alien

Except as otherwise provided in this paragraph—

34a
(i) any alien not described in paragraph
(1) who has been ordered removed may designate one country to which the alien wants to be
removed, and
(ii) the Attorney General shall remove the
alien to the country the alien so designates.
(B)

Limitation on designation

An alien may designate under subparagraph
(A)(i) a foreign territory contiguous to the United
States, an adjacent island, or an island adjacent to
a foreign territory contiguous to the United States
as the place to which the alien is to be removed
only if the alien is a native, citizen, subject, or national of, or has resided in, that designated territory or island.
(C)

Disregarding designation

The Attorney General may disregard a designation under subparagraph (A)(i) if—
(i) the alien fails to designate a country
promptly;
(ii) the government of the country does not
inform the Attorney General finally, within 30
days after the date the Attorney General first
inquires, whether the government will accept
the alien into the country;
(iii) the government of the country is not
willing to accept the alien into the country; or
(iv) the Attorney General decides that removing the alien to the country is prejudicial to
the United States.

35a
(D)

Alternative country

If an alien is not removed to a country designated under subparagraph (A)(i), the Attorney
General shall remove the alien to a country of
which the alien is a subject, national, or citizen unless the government of the country—
(i) does not inform the Attorney General
or the alien finally, within 30 days after the date
the Attorney General first inquires or within
another period of time the Attorney General
decides is reasonable, whether the government
will accept the alien into the country; or
(ii) is not willing to accept the alien into the
country.
(E)

Additional removal countries

If an alien is not removed to a country under
the previous subparagraphs of this paragraph, the
Attorney General shall remove the alien to any of
the following countries:
(i) The country from which the alien was
admitted to the United States.
(ii) The country in which is located the foreign port from which the alien left for the
United States or for a foreign territory contiguous to the United States.
(iii) A country in which the alien resided before the alien entered the country from which
the alien entered the United States.
(iv) The country in which the alien was
born.

36a
(v) The country that had sovereignty over
the alien’s birthplace when the alien was born.
(vi) The country in which the alien’s birthplace is located when the alien is ordered removed.
(vii) If impracticable, inadvisable, or impossible to remove the alien to each country described in a previous clause of this subparagraph, another country whose government will
accept the alien into that country.
(F)

Removal country when United States is at
war

When the United States is at war and the Attorney General decides that it is impracticable, inadvisable, inconvenient, or impossible to remove
an alien under this subsection because of the war,
the Attorney General may remove the alien—
(i) to the country that is host to a government in exile of the country of which the alien
is a citizen or subject if the government of the
host country will permit the alien’s entry; or
(ii) if the recognized government of the
country of which the alien is a citizen or subject
is not in exile, to a country, or a political or territorial subdivision of a country, that is very
near the country of which the alien is a citizen
or subject, or, with the consent of the government of the country of which the alien is a citizen or subject, to another country.

37a
(3) Restriction on removal to a country where alien’s
life or freedom would be threatened
(A)

In general

Notwithstanding paragraphs (1) and (2), the
Attorney General may not remove an alien to a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country because of the alien’s race, religion, nationality, membership in a particular social group,
or political opinion.
(B)

Exception

Subparagraph (A) does not apply to an alien deportable under section 1227(a)(4)(D) of this title or
if the Attorney General decides that—
(i) the alien ordered, incited, assisted, or
otherwise participated in the persecution of an
individual because of the individual’s race, religion, nationality, membership in a particular
social group, or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime is
a danger to the community of the United
States;
(iii) there are serious reasons to believe
that the alien committed a serious nonpolitical
crime outside the United States before the alien arrived in the United States; or
(iv) there are reasonable grounds to believe that the alien is a danger to the security
of the United States.

38a
For purposes of clause (ii), an alien who has been
convicted of an aggravated felony (or felonies) for
which the alien has been sentenced to an aggregate term of imprisonment of at least 5 years shall
be considered to have committed a particularly serious crime. The previous sentence shall not preclude the Attorney General from determining
that, notwithstanding the length of sentence imposed, an alien has been convicted of a particularly
serious crime. For purposes of clause (iv), an alien who is described in section 1227(a)(4)(B) of this
title shall be considered to be an alien with respect
to whom there are reasonable grounds for regarding as a danger to the security of the United
States.
(C)

Sustaining burden of proof; credibility determinations

In determining whether an alien has demonstrated that the alien’s life or freedom would be
threatened for a reason described in subparagraph
(A), the trier of fact shall determine whether the alien has sustained the alien’s burden of proof, and
shall make credibility determinations, in the manner described in clauses (ii) and (iii) of section
1158(b)(1)(B) of this title.
(c)

Removal of aliens arriving at port of entry
(1) Vessels and aircraft

An alien arriving at a port of entry of the United
States who is ordered removed either without a hearing under section 1225(b)(1) or 1225(c) of this title or
pursuant to proceedings under section 1229a of this
title initiated at the time of such alien’s arrival shall

39a
be removed immediately on a vessel or aircraft owned
by the owner of the vessel or aircraft on which the
alien arrived in the United States, unless—
(A) it is impracticable to remove the alien on
one of those vessels or aircraft within a reasonable
time, or
(B)

the alien is a stowaway—

(i) who has been ordered removed in accordance with section 1225(a)(1) of this title,
(ii) who has requested asylum, and
(iii) whose application has not been adjudicated or whose asylum application has been denied but who has not exhausted all appeal
rights.
(2) Stay of removal
(A)

In general

The Attorney General may stay the removal of
an alien under this subsection if the Attorney General decides that—
(i) immediate removal is not practicable
or proper; or
(ii) the alien is needed to testify in the
prosecution of a person for a violation of a law
of the United States or of any State.
(B)

Payment of detention costs

During the period an alien is detained because
of a stay of removal under subparagraph (A)(ii),

40a
the Attorney General may pay from the appropriation “Immigration and Naturalization Service—
Salaries and Expenses”—
(i)
and

the cost of maintenance of the alien;

(ii) a witness fee of $1 a day.
(C)

Release during stay

The Attorney General may release an alien
whose removal is stayed under subparagraph
(A)(ii) on—
(i) the alien’s filing a bond of at least $500
with security approved by the Attorney General;
(ii) condition that the alien appear when
required as a witness and for removal; and
(iii) other conditions the Attorney General
may prescribe.
(3) Costs of detention and maintenance pending
removal
(A)

In general

Except as provided in subparagraph (B) and
subsection (d),4 of this section, an owner of a vessel or aircraft bringing an alien to the United
States shall pay the costs of detaining and maintaining the alien—
(i) while the alien is detained under subsection (d)(1) of this section, and

4

So in original.

Probably should be subsection “(e)”.

41a
(ii) in the case of an alien who is a stowaway, while the alien is being detained pursuant to—
(I)
subsection (d)(2)(A) or (d)(2)(B)(i)
of this section,
(II) subsection (d)(2)(B)(ii) or (iii) of
this section for the period of time reasonably
necessary for the owner to arrange for repatriation or removal of the stowaway, including obtaining necessary travel documents, but not to extend beyond the date on
which it is ascertained that such travel documents cannot be obtained from the country
to which the stowaway is to be returned, or
(III) section 1225(b)(1)(B)(ii) of this title, for a period not to exceed 15 days (excluding Saturdays, Sundays, and holidays)
commencing on the first such day which begins on the earlier of 72 hours after the time
of the initial presentation of the stowaway
for inspection or at the time the stowaway is
determined to have a credible fear of persecution.
(B)

Nonapplication

Subparagraph (A) shall not apply if—
(i)

the alien is a crewmember;

(ii)

the alien has an immigrant visa;

(iii) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States and applies for admission not later than

42a
120 days after the date the visa or documentation was issued;
(iv) the alien has a reentry permit and applies for admission not later than 120 days after
the date of the alien’s last inspection and admission;
(v)(I) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States or a reentry permit;
(II) the alien applies for admission more
than 120 days after the date the visa or documentation was issued or after the date of the
last inspection and admission under the reentry permit; and
(III) the owner of the vessel or aircraft satisfies the Attorney General that the existence
of the condition relating to inadmissibility could
not have been discovered by exercising reasonable care before the alien boarded the vessel or
aircraft; or
(vi) the individual claims to be a national
of the United States and has a United States
passport.
(d)

Requirements of persons providing transportation
(1) Removal at time of arrival

An owner, agent, master, commanding officer,
person in charge, purser, or consignee of a vessel or
aircraft bringing an alien (except an alien crewmember) to the United States shall—

43a
(A) receive an alien back on the vessel or aircraft or another vessel or aircraft owned or operated by the same interests if the alien is ordered
removed under this part; and
(B) take the alien to the foreign country to
which the alien is ordered removed.
(2) Alien stowaways

An owner, agent, master, commanding officer,
charterer, or consignee of a vessel or aircraft arriving
in the United States with an alien stowaway—
(A) shall detain the alien on board the vessel
or aircraft, or at such place as the Attorney General shall designate, until completion of the inspection of the alien by an immigration officer;
(B) may not permit the stowaway to land in
the United States, except pursuant to regulations
of the Attorney General temporarily—
(i)

for medical treatment,

(ii) for detention of the stowaway by the
Attorney General, or
(iii) for departure or removal of the stowaway; and
(C) if ordered by an immigration officer,
shall remove the stowaway on the vessel or aircraft or on another vessel or aircraft.
The Attorney General shall grant a timely request to
remove the stowaway under subparagraph (C) on a
vessel or aircraft other than that on which the stowaway arrived if the requester has obtained any travel
documents necessary for departure or repatriation of

44a
the stowaway and removal of the stowaway will not
be unreasonably delayed.
(3) Removal upon order

An owner, agent, master, commanding officer,
person in charge, purser, or consignee of a vessel, aircraft, or other transportation line shall comply with
an order of the Attorney General to take on board,
guard safely, and transport to the destination specified any alien ordered to be removed under this chapter.
(e)

Payment of expenses of removal
(1) Costs of removal at time of arrival

In the case of an alien who is a stowaway or who is
ordered removed either without a hearing under section 1225(a)(1)5 or 1225(c) of this title or pursuant to
proceedings under section 1229a of this title initiated
at the time of such alien’s arrival, the owner of the
vessel or aircraft (if any) on which the alien arrived
in the United States shall pay the transportation cost
of removing the alien. If removal is on a vessel or
aircraft not owned by the owner of the vessel or aircraft on which the alien arrived in the United States,
the Attorney General may—
(A) pay the cost from the appropriation “Immigration and Naturalization Service—Salaries
and Expenses”; and
(B) recover the amount of the cost in a civil
action from the owner, agent, or consignee of the

5

So in original.

Probably should be “1225(b)(1)”.

45a
vessel or aircraft (if any) on which the alien arrived in the United States.
(2) Costs of removal to port of removal for aliens
admitted or permitted to land

In the case of an alien who has been admitted or
permitted to land and is ordered removed, the cost (if
any) of removal of the alien to the port of removal
shall be at the expense of the appropriation for the
enforcement of this chapter.
(3) Costs of removal from port of removal for aliens
admitted or permitted to land
(A)

Through appropriation

Except as provided in subparagraph (B), in the
case of an alien who has been admitted or permitted to land and is ordered removed, the cost (if
any) of removal of the alien from the port of removal shall be at the expense of the appropriation
for the enforcement of this chapter.
(B)
(i)

Through owner
In general

In the case of an alien described in clause
(ii), the cost of removal of the alien from the
port of removal may be charged to any owner
of the vessel, aircraft, or other transportation
line by which the alien came to the United
States.
(ii) Aliens described

An alien described in this clause is an alien
who—

46a
(I) is admitted to the United States (other
than lawfully admitted for permanent residence) and is ordered removed within 5 years
of the date of admission based on a ground that
existed before or at the time of admission, or
(II) is an alien crewman permitted to land
temporarily under section 1282 of this title and
is ordered removed within 5 years of the date
of landing.
(C)

Costs of removal of certain aliens granted
voluntary departure

In the case of an alien who has been granted
voluntary departure under section 1229c of this title and who is financially unable to depart at the
alien’s own expense and whose removal the Attorney General deems to be in the best interest of the
United States, the expense of such removal may
be paid from the appropriation for the enforcement of this chapter.
(f )

Aliens requiring personal care during removal
(1) In general

If the Attorney General believes that an alien being removed requires personal care because of the alien’s mental or physical condition, the Attorney General may employ a suitable person for that purpose
who shall accompany and care for the alien until the
alien arrives at the final destination.
(2) Costs

The costs of providing the service described in
paragraph (1) shall be defrayed in the same manner

47a
as the expense of removing the accompanied alien is
defrayed under this section.
(g)

Places of detention
(1) In general

The Attorney General shall arrange for appropriate places of detention for aliens detained pending removal or a decision on removal. When United States
Government facilities are unavailable or facilities
adapted or suitably located for detention are unavailable for rental, the Attorney General may expend
from the appropriation “Immigration and Naturalization Service—Salaries and Expenses”, without regard to section 6101 of title 41, amounts necessary to
acquire land and to acquire, build, remodel, repair,
and operate facilities (including living quarters for
immigration officers if not otherwise available) necessary for detention.
(2) Detention facilities of the Immigration and
Naturalization Service

Prior to initiating any project for the construction
of any new detention facility for the Service, the
Commissioner shall consider the availability for purchase or lease of any existing prison, jail, detention
center, or other comparable facility suitable for such
use.
(h)

Statutory construction

Nothing in this section shall be construed to create
any substantive or procedural right or benefit that is legally enforceable by any party against the United States
or its agencies or officers or any other person.

48a
(i)

Incarceration

(1) If the chief executive officer of a State (or, if appropriate, a political subdivision of the State) exercising
authority with respect to the incarceration of an undocumented criminal alien submits a written request to the
Attorney General, the Attorney General shall, as determined by the Attorney General—
(A) enter into a contractual arrangement which
provides for compensation to the State or a political
subdivision of the State, as may be appropriate, with
respect to the incarceration of the undocumented
criminal alien; or
(B) take the undocumented criminal alien into
the custody of the Federal Government and incarcerate the alien.
(2) Compensation under paragraph (1)(A) shall be
the average cost of incarceration of a prisoner in the relevant State as determined by the Attorney General.
(3) For purposes of this subsection, the term “undocumented criminal alien” means an alien who—
(A) has been convicted of a felony or two or
more misdemeanors; and
(B)(i) entered the United States without inspection or at any time or place other than as designated
by the Attorney General;
(ii) was the subject of exclusion or deportation
proceedings at the time he or she was taken into custody by the State or a political subdivision of the
State; or

49a
(iii) was admitted as a nonimmigrant and at the
time he or she was taken into custody by the State or
a political subdivision of the State has failed to maintain the nonimmigrant status in which the alien was
admitted or to which it was changed under section
1258 of this title, or to comply with the conditions of
any such status.
(4)(A) In carrying out paragraph (1), the Attorney
General shall give priority to the Federal incarceration
of undocumented criminal aliens who have committed
aggravated felonies.
(B) The Attorney General shall ensure that undocumented criminal aliens incarcerated in Federal facilities pursuant to this subsection are held in facilities
which provide a level of security appropriate to the
crimes for which they were convicted.
(5) There are authorized to be appropriated to carry
out this subsection—
(A)

$750,000,000 for fiscal year 2006;

(B)

$850,000,000 for fiscal year 2007; and

(C) $950,000,000 for each of the fiscal years 2008
through 2011.
(6) Amounts appropriated pursuant to the authorization of appropriations in paragraph (5) that are distributed to a State or political subdivision of a State, including a municipality, may be used only for correctional
purposes.

50a
4.

8 U.S.C. 1252 provides:

Judicial review of orders of removal
(a)

Applicable provisions
(1) General orders of removal

Judicial review of a final order of removal (other
than an order of removal without a hearing pursuant
to section 1225(b)(1) of this title) is governed only by
chapter 158 of title 28, except as provided in subsection (b) of this section and except that the court may
not order the taking of additional evidence under section 2347(c) of such title.
(2) Matters not subject to judicial review
(A)

Review relating to section 1225(b)(1)

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, no court
shall have jurisdiction to review—
(i)
except as provided in subsection (e) of
this section, any individual determination or to
entertain any other cause or claim arising from
or relating to the implementation or operation
of an order of removal pursuant to section
1225(b)(1) of this title,
(ii) except as provided in subsection (e) of
this section, a decision by the Attorney General
to invoke the provisions of such section,
(iii) the application of such section to individual aliens, including the determination made
under section 1225(b)(1)(B) of this title, or

51a
(iv) except as provided in subsection (e),
procedures and policies adopted by the Attorney General to implement the provisions of section 1225(b)(1) of this title.
(B)

Denials of discretionary relief

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, and except as provided in subparagraph (D), and regardless of whether the judgment, decision, or action
is made in removal proceedings, no court shall
have jurisdiction to review—
(i)
any judgment regarding the granting
of relief under section 1182(h), 1182(i), 1229b,
1229c, or 1255 of this title, or
(ii) any other decision or action of the Attorney General or the Secretary of Homeland
Security the authority for which is specified under this subchapter to be in the discretion of
the Attorney General or the Secretary of
Homeland Security, other than the granting of
relief under section 1158(a) of this title.
(C)

Orders against criminal aliens

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, and except as provided in subparagraph (D), no court
shall have jurisdiction to review any final order of
removal against an alien who is removable by rea-

52a
son of having committed a criminal offense covered in section 1182(a)(2) or 1227(a)(2)(A)(iii), (B),
(C), or (D) of this title, or any offense covered by
section 1227(a)(2)(A)(ii) of this title for which both
predicate offenses are, without regard to their
date of commission, otherwise covered by section
1227(a)(2)(A)(i) of this title.
(D)

Judicial review of certain legal claims

Nothing in subparagraph (B) or (C), or in any
other provision of this chapter (other than this
section) which limits or eliminates judicial review,
shall be construed as precluding review of constitutional claims or questions of law raised upon a
petition for review filed with an appropriate court
of appeals in accordance with this section.
(3) Treatment of certain decisions

No alien shall have a right to appeal from a decision of an immigration judge which is based solely on
a certification described in section 1229a(c)(1)(B) of
this title.
(4) Claims under the United Nations Convention

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections 1361 and 1651 of such title, a petition for review
filed with an appropriate court of appeals in accordance with this section shall be the sole and exclusive
means for judicial review of any cause or claim under
the United Nations Convention Against Torture and
Other Forms of Cruel, Inhuman, or Degrading Treatment or Punishment, except as provided in subsection (e) of this section.

53a
(5) Exclusive means of review

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections 1361 and 1651 of such title, a petition for review
filed with an appropriate court of appeals in accordance with this section shall be the sole and exclusive
means for judicial review of an order of removal entered or issued under any provision of this chapter,
except as provided in subsection (e) of this section.
For purposes of this chapter, in every provision that
limits or eliminates judicial review or jurisdiction to
review, the terms “judicial review” and “jurisdiction
to review” include habeas corpus review pursuant to
section 2241 of title 28, or any other habeas corpus
provision, sections 1361 and 1651 of such title, and review pursuant to any other provision of law (statutory or nonstatutory).
(b)

Requirements for review of orders of removal

With respect to review of an order of removal under
subsection (a)(1), the following requirements apply:
(1) Deadline

The petition for review must be filed not later than
30 days after the date of the final order of removal.
(2) Venue and forms

The petition for review shall be filed with the court
of appeals for the judicial circuit in which the immigration judge completed the proceedings. The record and briefs do not have to be printed. The court
of appeals shall review the proceeding on a typewritten record and on typewritten briefs.

54a
(3) Service
(A)

In general

The respondent is the Attorney General. The
petition shall be served on the Attorney General
and on the officer or employee of the Service in
charge of the Service district in which the final order of removal under section 1229a of this title was
entered.
(B)

Stay of order

Service of the petition on the officer or employee does not stay the removal of an alien pending the court’s decision on the petition, unless the
court orders otherwise.
(C)

Alien’s brief

The alien shall serve and file a brief in connection with a petition for judicial review not later
than 40 days after the date on which the administrative record is available, and may serve and file
a reply brief not later than 14 days after service of
the brief of the Attorney General, and the court
may not extend these deadlines except upon motion for good cause shown. If an alien fails to file
a brief within the time provided in this paragraph,
the court shall dismiss the appeal unless a manifest injustice would result.
(4) Scope and standard for review

Except as provided in paragraph (5)(B)—
(A) the court of appeals shall decide the petition only on the administrative record on which
the order of removal is based,

55a
(B) the administrative findings of fact are conclusive unless any reasonable adjudicator would be
compelled to conclude to the contrary,
(C) a decision that an alien is not eligible for
admission to the United States is conclusive unless manifestly contrary to law, and
(D) the Attorney General’s discretionary
judgment whether to grant relief under section
1158(a) of this title shall be conclusive unless manifestly contrary to the law and an abuse of discretion.
No court shall reverse a determination made by a
trier of fact with respect to the availability of corroborating evidence, as described in section 1158(b)(1)(B),
1229a(c)(4)(B), or 1231(b)(3)(C) of this title, unless
the court finds, pursuant to subsection (b)(4)(B), that
a reasonable trier of fact is compelled to conclude
that such corroborating evidence is unavailable.
(5) Treatment of nationality claims
(A)

Court determination if no issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds from
the pleadings and affidavits that no genuine issue
of material fact about the petitioner’s nationality
is presented, the court shall decide the nationality
claim.
(B)

Transfer if issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds that
a genuine issue of material fact about the petitioner’s nationality is presented, the court shall

56a
transfer the proceeding to the district court of the
United States for the judicial district in which the
petitioner resides for a new hearing on the nationality claim and a decision on that claim as if an action had been brought in the district court under
section 2201 of title 28.
(C)

Limitation on determination

The petitioner may have such nationality claim
decided only as provided in this paragraph.
(6) Consolidation with review of motions to reopen or
reconsider

When a petitioner seeks review of an order under
this section, any review sought of a motion to reopen
or reconsider the order shall be consolidated with the
review of the order.
(7) Challenge to validity of orders in certain criminal
proceedings
(A)

In general

If the validity of an order of removal has not
been judicially decided, a defendant in a criminal
proceeding charged with violating section 1253(a)
of this title may challenge the validity of the order
in the criminal proceeding only by filing a separate
motion before trial. The district court, without a
jury, shall decide the motion before trial.
(B)

Claims of United States nationality

If the defendant claims in the motion to be a
national of the United States and the district court
finds that—

57a
(i) no genuine issue of material fact about
the defendant’s nationality is presented, the
court shall decide the motion only on the administrative record on which the removal order
is based and the administrative findings of fact
are conclusive if supported by reasonable, substantial, and probative evidence on the record
considered as a whole; or
(ii) a genuine issue of material fact about
the defendant’s nationality is presented, the
court shall hold a new hearing on the nationality claim and decide that claim as if an action
had been brought under section 2201 of title 28.
The defendant may have such nationality claim decided only as provided in this subparagraph.
(C)

Consequence of invalidation

If the district court rules that the removal order is invalid, the court shall dismiss the indictment for violation of section 1253(a) of this title.
The United States Government may appeal the
dismissal to the court of appeals for the appropriate circuit within 30 days after the date of the dismissal.
(D)

Limitation on filing petitions for review

The defendant in a criminal proceeding under
section 1253(a) of this title may not file a petition
for review under subsection (a) of this section during the criminal proceeding.
(8) Construction

This subsection—

58a
(A) does not prevent the Attorney General,
after a final order of removal has been issued,
from detaining the alien under section 1231(a) of
this title;
(B) does not relieve the alien from complying
with section 1231(a)(4) of this title and section
1253(g)1 of this title; and
(C) does not require the Attorney General to
defer removal of the alien.
(9) Consolidation of questions for judicial review

Judicial review of all questions of law and fact, including interpretation and application of constitutional and statutory provisions, arising from any action taken or proceeding brought to remove an alien
from the United States under this subchapter shall
be available only in judicial review of a final order under this section. Except as otherwise provided in
this section, no court shall have jurisdiction, by habeas corpus under section 2241 of title 28 or any other
habeas corpus provision, by section 1361 or 1651 of
such title, or by any other provision of law (statutory
or nonstatutory), to review such an order or such
questions of law or fact.
(c)

Requirements for petition

A petition for review or for habeas corpus of an order
of removal—
(1)

shall attach a copy of such order, and

(2) shall state whether a court has upheld the validity of the order, and, if so, shall state the name of
1

See References in Text note below.

59a
the court, the date of the court’s ruling, and the kind
of proceeding.
(d)

Review of final orders

A court may review a final order of removal only if—
(1) the alien has exhausted all administrative
remedies available to the alien as of right, and
(2) another court has not decided the validity of
the order, unless the reviewing court finds that the
petition presents grounds that could not have been
presented in the prior judicial proceeding or that the
remedy provided by the prior proceeding was inadequate or ineffective to test the validity of the order.
(e)

Judicial review of orders under section 1225(b)(1)
(1) Limitations on relief

Without regard to the nature of the action or claim
and without regard to the identity of the party or parties bringing the action, no court may—
(A) enter declaratory, injunctive, or other
equitable relief in any action pertaining to an order to exclude an alien in accordance with section
1225(b)(1) of this title except as specifically authorized in a subsequent paragraph of this subsection, or
(B) certify a class under Rule 23 of the Federal Rules of Civil Procedure in any action for
which judicial review is authorized under a subsequent paragraph of this subsection.

60a
(2) Habeas corpus proceedings

Judicial review of any determination made under
section 1225(b)(1) of this title is available in habeas
corpus proceedings, but shall be limited to determinations of—
(A)

whether the petitioner is an alien,

(B) whether the petitioner was ordered removed under such section, and
(C) whether the petitioner can prove by a
preponderance of the evidence that the petitioner
is an alien lawfully admitted for permanent residence, has been admitted as a refugee under section 1157 of this title, or has been granted asylum
under section 1158 of this title, such status not
having been terminated, and is entitled to such
further inquiry as prescribed by the Attorney
General pursuant to section 1225(b)(1)(C) of this
title.
(3) Challenges on validity of the system
(A)

In general

Judicial review of determinations under section
1225(b) of this title and its implementation is available in an action instituted in the United States
District Court for the District of Columbia, but
shall be limited to determinations of—
(i) whether such section, or any regulation
issued to implement such section, is constitutional; or

61a
(ii) whether such a regulation, or a written
policy directive, written policy guideline, or written procedure issued by or under the authority
of the Attorney General to implement such section, is not consistent with applicable provisions of this subchapter or is otherwise in violation of law.
(B)

Deadlines for bringing actions

Any action instituted under this paragraph
must be filed no later than 60 days after the date the
challenged section, regulation, directive, guideline,
or procedure described in clause (i) or (ii) of subparagraph (A) is first implemented.
(C)

Notice of appeal

A notice of appeal of an order issued by the District Court under this paragraph may be filed not
later than 30 days after the date of issuance of
such order.
(D)

Expeditious consideration of cases

It shall be the duty of the District Court, the
Court of Appeals, and the Supreme Court of the
United States to advance on the docket and to expedite to the greatest possible extent the disposition of any case considered under this paragraph.
(4) Decision

In any case where the court determines that the
petitioner—
(A) is an alien who was not ordered removed
under section 1225(b)(1) of this title, or

62a
(B) has demonstrated by a preponderance of
the evidence that the alien is an alien lawfully admitted for permanent residence, has been admitted as a refugee under section 1157 of this title, or
has been granted asylum under section 1158 of
this title, the court may order no remedy or relief
other than to require that the petitioner be provided a hearing in accordance with section 1229a
of this title. Any alien who is provided a hearing
under section 1229a of this title pursuant to this
paragraph may thereafter obtain judicial review
of any resulting final order of removal pursuant to
subsection (a)(1).
(5) Scope of inquiry

In determining whether an alien has been ordered
removed under section 1225(b)(1) of this title, the
court’s inquiry shall be limited to whether such an order in fact was issued and whether it relates to the
petitioner. There shall be no review of whether the
alien is actually inadmissible or entitled to any relief
from removal.
(f )

Limit on injunctive relief
(1) In general

Regardless of the nature of the action or claim or
of the identity of the party or parties bringing the action, no court (other than the Supreme Court) shall
have jurisdiction or authority to enjoin or restrain
the operation of the provisions of part IV of this subchapter, as amended by the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, other

63a
than with respect to the application of such provisions to an individual alien against whom proceedings
under such part have been initiated.
(2) Particular cases

Notwithstanding any other provision of law, no
court shall enjoin the removal of any alien pursuant
to a final order under this section unless the alien
shows by clear and convincing evidence that the entry or execution of such order is prohibited as a matter of law.
(g)

Exclusive jurisdiction

Except as provided in this section and notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and sections 1361 and 1651 of
such title, no court shall have jurisdiction to hear any
cause or claim by or on behalf of any alien arising from
the decision or action by the Attorney General to commence proceedings, adjudicate cases, or execute removal orders against any alien under this chapter.

